<html>
<title> - REFORM AND IMPROVEMENT: ASSESSING THE PATH FORWARD FOR THE TRANSPORTATION SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






      REFORM AND IMPROVEMENT: ASSESSING THE PATH FORWARD FOR THE 
                 TRANSPORTATION SECURITY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

                           Serial No. 114-36

                               __________

       Printed for the use of the Committee on Homeland Security

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                        U.S. GOVERNMENT PUBLISHING OFFICE 

99-578 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     John Katko, New York, Chairman
Mike Rogers, Alabama                 Kathleen M. Rice, New York
Earl L. ``Buddy'' Carter, Georgia    William R. Keating, Massachusetts
Mark Walker, North Carolina          Donald M. Payne, Jr., New Jersey
John Ratcliffe, Texas                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
             Vacancy, Minority Subcommittee Staff Director
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Honorable John Roth, Inspector General, Office of Inspector 
  General, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Honorable Peter Neffenger, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  List...........................................................    39

                                Appendix

Questions From Chairman John Katko for Peter Neffenger...........    45
Questions From Ranking Member Bennie G. Thompson for Peter 
  Neffenger......................................................    50
Questions From Honorable William R. Keating for Peter Neffenger..    52
Questions From Chairman John Katko for John Roth.................    53
 
      REFORM AND IMPROVEMENT: ASSESSING THE PATH FORWARD FOR THE 
                 TRANSPORTATION SECURITY ADMINISTRATION

                              ----------                              


                       Thursday, October 8, 2015

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:13 p.m., in 
Room 311, Cannon House Office Building, Hon. John Katko 
[Chairman of the subcommittee] presiding.
    Present: Representatives Katko, Carter, Rice, Keating, and 
Thompson.
    Mr. Katko. The Committee on Homeland Security Subcommittee 
on Transportation Security will come to order. The subcommittee 
is meeting today to hear testimony on assessing the future of 
the Transportation Security Administration. I now recognize 
myself for an opening statement.
    I would like to welcome everyone to today's hearing and I 
am pleased to have Inspector General Roth back once again and 
Administrator Neffenger again back here as well. The purpose of 
today's hearing is to examine TSA's challenges and identify 
what changes TSA needs to make in order to move forward in an 
effective manner.
    TSA was created out of a tragedy and was quickly stood up 
to address major security vulnerabilities that terrorists 
exploited. However, 14 years after 9/11, we now have an agency 
that has had many missteps in its efforts to keep the traveling 
public safe.
    Inspector General Roth, your office has conducted over 100 
audits identifying major security vulnerabilities and 
organizational challenges throughout TSA, including the most 
recent reports that found that TSA passenger screening was 
allegedly wrong 96 percent of the time. And that 73 aviation 
workers had potential ties to terrorism. Of course, there is 
also the recent cases involving drug trafficking incidents in 
airports at Dallas/Fort Worth, Los Angeles International, and 
Oakland, to name a few involving employees. These figures are 
startling and shatter the public confidence.
    I look forward to hearing from you today about what 
systemic problems you have identified and what needs to be done 
to help TSA address these challenges.
    What is most unfortunate is that these startling findings 
by both your office, and the Government Accountability Office, 
as well as the FBI and other agencies, are not isolated 
instances. Many of these vulnerabilities have been identified 
and known for years, and unfortunately, prior to this year the 
previous leadership in both TSA and DHS did not take the 
appropriate steps to address these known security 
vulnerabilities. The purpose of today's hearing is not to look 
backwards, however.
    With new leadership, Administrator Neffenger, you have an 
opportunity to address these challenges head on, and lead TSA 
in a different path, and I am confident that you will do so. In 
our discussions you have been frank, straightforward, and 
sincere and I appreciate that. I have full confidence that you 
are tackling TSA's challenges with an open mind. I look forward 
to hearing from you today about how we can work together to 
ensure TSA fulfills its critical mission.
    This subcommittee has worked tirelessly and in an 
overwhelmingly bipartisan manner to address the challenges that 
TSA faces. Since the start of this Congress we have had 7 
pieces of legislation pass the House, which is remarkable out 
of this committee, and 2 of those bills are now public laws. 
However, there is no silver bullet to address all of the 
challenges that TSA faces, and unfortunately, we have to be 
right 100 percent of the time and the terrorists have to be 
right just once.
    With nearly 2 million passengers being screened every day 
we need to do more to better focus our efforts on those 
passengers that are unknown while still taking precautions to 
protect against the insider threat.
    Currently, less than 5 percent of travellers participate in 
PreCheck. TSA needs to increase this population so that it can 
target its efforts and resources in a more risk-based manner. 
That is why I introduced H.R. 2843, the PreCheck Expansion Act. 
This bill will help TSA to take steps to effectively and 
robustly market the program and dramatically increase the 
enrollment. However, in addition to expanding PreCheck, TSA 
must look at what additional efforts are necessary to increase 
the security effectiveness of PreCheck and what measures are 
necessary to mitigate the insider threat.
    This week the House passed H.R. 3102, the Airport Access 
Control Security Improvement Act of 2015. This legislation 
which I introduced earlier this year requires TSA to consult 
with Federal and private-sector partners to review existing 
employee screening protocols and work in a comprehensive manner 
to improve the effectiveness of access controls at airports 
across the United States. It is a major undertaking.
    We must do a better job at knowing more about the people 
who work and travel through our Nation's airports. Securing our 
Nation's transportation systems is of vital importance to both 
our National security, and our economic strength, and 
stability.
    In the 9/11 Commission report, the then head of the CIA, 
George Tenet was quoted as saying, ``The system was blinking 
red,'' in the months leading up to 9/11. We cannot stand idly 
by and grant tacit approval to lax security measures when we 
have the authority, responsibility, and indeed the duty to spur 
action and keep the traveling public safe from harm.
    Inspector General Roth, Administrator Neffenger, this 
committee wants to support both of you in your efforts to 
reform TSA. We look forward to hearing from you today. You are 
not on opposite sides of the fence. I view you both on the same 
side of the fence: One exposing the problems, the other one 
making sure they get fixed. That is why you are both here 
today.
    With that, I recognize the Ranking Member of the 
subcommittee, the gentlelady from New York, Miss Rice for an 
opening statement.
    Miss Rice. Thank you, Mr. Chairman, and thank you for 
convening this hearing. I would also like to thank the 
witnesses for being here today to discuss the need for and 
status of reforms and improvements within the TSA.
    Administrator Neffenger, I understand you had to adjust 
your schedule in order to testify before this subcommittee 
today and I want to tell you how much we appreciate that. While 
you have only been in this position since June, you have 
demonstrate a true commitment to work constructively with us as 
you take on the challenges facing TSA and I thank you for that.
    Finally, I want to thank Inspector General Roth for being 
here today and for the work you have done and continue to do, 
to identify vulnerabilities within TSA and advise us on what we 
can do to enhance the security of our commercial aviation 
sector. Your most recent report which is Classified, concerns 
covert tests conducted by undercover DHS investigators who 
attempted to smuggle prohibited items, including weapons and 
mock explosives past TSA security checkpoints. As we all know 
the results of these covert tests were leaked to the media in 
June before the report was complete, and it was reported that 
in 67 out of 70 tests, TSA failed to detect these items and 
allowed the investigators to proceed past the checkpoint.
    Sixty-seven out of 70, that is 96 percent of the time. I 
think we can all agree that 96 percent is an alarming figure, 
and one that we cannot overlook. We have to assess all of the 
findings and recommendations in your report. We have to shine a 
light on the vulnerabilities that these covert tests have 
exposed, and we have to take action to eliminate those 
vulnerabilities.
    We know that the threats to this country, particularly to 
our aviation sector, are constant. They are real. We know those 
threats are evolving and becoming more sophisticated, but the 
people who want to do us harm are always on the watch for a new 
way in, a new way to beat the system. That is why we have to be 
even more vigilant. That is why we conduct these tests. Because 
we know that no matter how good our security might be, it can 
be better. It can always be better and the findings in this 
report make it clear that it can and must be much better in 
order to match the threats that we face today.
    So I am eager to hear how our witnesses are working 
together to act on these findings, to implement reforms, and to 
close the gaps that these covert tests uncovered.
    Obviously, as we all know, Administrator Neffenger, you 
have only been in your position for a few months. Many of the 
topics and reports that Inspector General Roth has compiled 
pre-date your time at TSA, but I certainly look forward to 
hearing what TSA is doing in response to this most recent 
report, and if Inspector General Roth has previously identified 
other security gaps or vulnerabilities that TSA must still 
address, I would like to learn about those efforts as well.
    Mr. Chairman, thank you again for convening this hearing. I 
look forward to productive dialogue today. I yield back the 
balance of my time.
    [The statement of Miss Rice follows:]
               Statement of Ranking Member Kathleen Rice
                            October 8, 2015
    Administrator Neffenger, while you've only been in this position 
since June, you've demonstrated a real commitment to work 
constructively with us as you take on the challenges facing TSA, and I 
thank you for that.
    Finally, I want to thank Inspector General Roth for being here 
today and for the work you have done and continue to do to identify 
vulnerabilities within TSA and advise us on what we can do to enhance 
the security of our commercial aviation sector.
    Your most recent report, which is Classified, concerns covert tests 
conducted by undercover DHS investigators who attempted to smuggle 
prohibited items--including weapons and mock explosives--past TSA 
airport security checkpoints.
    As we all know, the results of these covert tests were leaked to 
the media in June, before the report was complete, and it was reported 
that in 67 out of 70 tests, TSA failed to detect these items and 
allowed the investigators to proceed past the checkpoint. Sixty-seven 
out of 70--that's 96 percent.
    I think we can all agree that 96 percent is an alarming figure, and 
one that we cannot overlook.
    We have to assess all of the findings and recommendations in your 
report, we have to shine a light on the vulnerabilities that these 
covert tests have exposed, and we have to take action to eliminate 
those vulnerabilities.
    We know that the threats to this country, particularly to our 
aviation sector, are constant. We know those threats are evolving and 
becoming more sophisticated, that the people who want to do us harm are 
always on the watch for a new way in, a new way to beat the system.
    That's why we have to be even more vigilant, that's why we conduct 
these tests--because we know that no matter how good our security might 
be, it can be better. It can always be better--and the findings in this 
report make it clear that it can and must be much better in order to 
match the threats we face today.
    So I'm eager to hear how our witnesses are working together to act 
on these findings, implement reforms, and close the gaps that these 
covert tests uncovered.
    I know that Administrator Neffenger has been in his position for 
only a few months, and that many of the topics and reports that 
Inspector General Roth has compiled pre-date the administrator's time 
at TSA.
    But I certainly look forward to hearing what TSA is doing in 
response to this most recent report. And if Inspector General Roth has 
previously identified other security gaps or vulnerabilities that TSA 
must still address, I would like to learn about those efforts as well.

    Mr. Katko. Thank you, Miss Rice.
    The Chair now recognizes the Ranking Minority Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for any statement he may have.
    Mr. Thompson. Thank you very much, Chairman Katko and 
Ranking Member Rice, for holding today's hearing. Also, I 
welcome the administrator and the Inspector General for their 
appearance also.
    Throughout this Congress, this committee has voiced its 
concern with the state of security within the commercial 
aviation sector. Over the span of recent years, both Inspector 
General and the Government Accountability Office, have compiled 
numerous reports that detail mismanagement, inefficiencies, and 
vulnerabilities within TSA. These reports range from 
vulnerabilities associated with granting expedited screening 
via the use of Secure Flight and Managed Inclusion, to 
vulnerabilities associated with access to secure areas of 
airports, and the tracking of maintenance for security-related 
technologies within airports.
    Most recently, the Inspector General released a report 
Covert Testing of TSA's Passenger Screening Technologies and 
Processes at Airport Security Checkpoints. Details of this 
Classified report were leaked this summer and the Inspector 
General has given a briefing on the final report to this 
subcommittee. While I look forward to hearing the status of 
solutions that TSA and DHS are implementing to ensure that any 
security gaps associated with checkpoint screening and 
technologies are secure, our main concern is that TSA will 
continue to purchase more technologies that address the threats 
of yesterday instead of the threats of tomorrow.
    Consequently, the Transportation Security Administration 
Reform and Improvement Act of 2015, a bill that recently passed 
the committee, includes language that aims to aid in the 
development and innovative security technologies through a 
program that would create public and private-sector 
partnerships to help businesses, particularly small businesses, 
to commercialize these innovative technologies. While that 
amendment is designed to improve the technologies TSA uses, I 
still have concerns about some of TSA's other screening 
programs the Inspector General has found ineffective.
    For example, the Inspector General has found that TSA's 
behavioral detection program commonly referred to as SPOT is a 
magnet for racial profiling, and TSA has little evidence that 
the program is an effective tool for screening passengers. We 
know that terrorists span all races, in all ethnicities, and 
have a profiling mechanism as a means of security is skeptical. 
Once again, I ask the administrator to review its efficiency of 
the behavioral detection program.
    While the administrator appeared before the committee on 
July 1, I, along with many of my colleagues across the aisle, 
stated that we would give him appropriate time to address some 
of these glaring concerns at TSA. So Mr. Administrator, we are 
glad to have you. I would assume the honeymoon is about over, 
and we can move forward. So I look forward to your testimony 
and I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            October 8, 2015
    Throughout this Congress, this committee has voiced its concerns 
with the state of security within the commercial aviation sector. Over 
the span of recent years, both the Inspector General and the Government 
Accountability Office have compiled numerous reports that detail 
mismanagement, inefficiencies, and vulnerabilities within TSA.
    These reports range from vulnerabilities associated with granting 
expedited screening via the use of Secure Flight and Managed Inclusion, 
to vulnerabilities associated with access to the secure areas of 
airports and the tracking of maintenance for security-related 
technologies within airports.
    Most recently, the Inspector General released a report, ``Covert 
Testing of TSA's Passenger Screening Technologies and Processes at 
Airport Security Checkpoints.'' Details of this Classified report were 
leaked this summer, and the Inspector General has given a briefing on 
the final report to the subcommittee.
    While I look forward to hearing the status of solutions that TSA 
and DHS are implementing to ensure that any security gaps associated 
with checkpoint screening and technologies are secure, I remain 
concerned that TSA will continue to purchase more technologies that 
address the threats of yesterday instead of the threats of tomorrow.
    Consequently, the ``Transportation Security Administration Reform 
and Improvement Act of 2015'' a bill that recently passed the committee 
includes language that aims to aid in the development of innovative 
security technologies through a program that would create public and 
private-sector partnerships to help businesses, particularly small 
businesses, to commercialize these innovative technologies.
    And while that amendment is designed to improve the technologies 
TSA uses, I still have concerns about some of TSAs other screening 
programs the Inspector General has found ineffective. For example, the 
Inspector General has found that TSA's behavioral detection program, 
commonly known as SPOT, is a magnet for racial profiling and TSA has 
little evidence that the program is an effective tool for screening 
passengers.
    We know that terrorists span all races and ethnicities and having a 
profiling mechanism as a means of security is skeptical. Once again, I 
ask the administrator to review its efficacy of behavioral detection 
programs.
    When the administrator appeared before the committee in July, I, 
along with my colleagues across the aisle, stated that we would give 
him appropriate time to address some of the glaring concerns at TSA. It 
is unrealistic to expect sweeping reforms to have been made in such a 
short amount of time, and I want to express my appreciation for the 
administrator's agreeing with Congress that the Managed Inclusion 
program was flawed and needed to be phased out.
    Even though the Inspector General's reports have been scathing, I 
am optimistic that the culture of TSA and the willingness to take the 
recommendations from these reports and implement reforms is improving.
    I am interested in hearing how these entities work together to take 
the issues found within these investigations and audits and use them to 
create solutions that will keep the traveling public safe.

    Mr. Katko. Thank you, Mr. Chairman. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    We are pleased to have a group of distinguished witnesses 
before us today, as I mentioned, to speak on this important 
topic, and are no strangers to this subcommittee. Let me remind 
the witnesses that their entire written statements will appear 
in the record.
    Our first witness is The Honorable John Roth, who currently 
serves as Inspector General of the Department of Homeland 
Security. Prior to his appointment as Inspector General, Mr. 
Roth served as the director of the Office of Criminal 
Investigations at the Food and Drug Administration, was chief 
of staff to the Deputy Attorney General and worked at the 
Narcotic and Dangerous Drugs Section, which is the best section 
in all of the Department of Justice. Am I right?
    Mr. Roth. You are close, yes.
    Mr. Katko. Because we both worked there. The Chair now 
recognizes Mr. Roth to testify.

STATEMENT OF THE HONORABLE JOHN ROTH, INSPECTOR GENERAL, OFFICE 
   OF INSPECTOR GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Good afternoon, Chairman Katko, Ranking Member 
Rice, and Members of the subcommittee. Thank you for inviting 
me here to testify today.
    Throughout this year I have testified before this 
subcommittee and others regarding TSA's ability to execute its 
important mission. I highlighted the challenges that TSA faced. 
I testified that these challenges were in almost every area of 
TSA's operations. Its problematic implementation of risk 
assessment rules, including its management of TSA PreCheck, 
failures in passenger and baggage screen operations, TSA's 
control over access to secure areas including management of its 
access badge program, its management of the Workforce Integrity 
program, its oversight over acquisition and maintenance of 
screening equipment, and other issues that we have discovered 
in the course of over 115 audits and inspection reports.
    These issues were exacerbated, in my judgment, by a culture 
that developed over time which resisted oversight and was 
unwilling to accept the need for change in the face of an 
evolving and serious threat. We have been writing reports 
highlighting some of these problems for years without an 
acknowledgment by TSA of the need to correct its deficiencies. 
However, we may be in a very different place now than we were 
then. I am hopeful that Administrator Neffenger brings with him 
a new attitude about oversight. Ensuring transportation safety 
is a massive and complex problem and there is no single silver 
bullet to solve it. It will take a sustained and disciplined 
effort.
    The first step, however, in fixing this problem is having 
the courage to critically assess the deficiencies in an honest 
and objective light, creating a culture of change within TSA, 
and giving the TSA workforce the ability to identify and 
address risks will be the administrator's most critical and 
challenging task. I believe that the Department and TSA 
leadership has begun that process of critical self-evaluation 
and aided by the workforce at TSA are in a position to address 
some of these issues. As you noted, we have just completed and 
distributed a report on our most recent round of covert testing 
of TSA's checkpoint operations. The results, while Classified, 
were disappointing.
    Our testing was designed to check test point operations in 
real-world conditions. The failures included failures in 
technology, failures in TSA procedures, and human error. We 
found layers of security simply missing. But these results were 
not unexpected. We had conducted other covert testing in the 
past with similar results.
    TSA has put forward a plan consistent with our 
recommendation to improve checkpoint quality in three areas: 
Technology, personnel, and procedures. This plan is appropriate 
because the checkpoint must be considered as a single system. 
The most effective technology is useless without the right 
personnel, and the personnel need to be guided by the 
appropriate procedures. Unless all three elements are operating 
efficiently, the checkpoint will not be effective.
    We will be monitoring TSA's efforts to increase the 
effectiveness of checkpoint operations and will continue to 
conduct covert testing. Consistent with our obligations under 
the Inspector General Act, we will report our results to this 
committee, as well as other committees of jurisdiction.
    While this audit focused on the checkpoint, effective 
checkpoint operations in and of themselves are not enough. We 
must also look at other areas to determine vulnerabilities. We 
have done considerable work on TSA's assessment of passenger 
risk, and have registered our concern about TSA's use of 
Managed Inclusion and risk rules that were not based on an 
individual assessment of passenger risk. I am pleased to report 
that TSA has phased out its use of Managed Inclusion. However, 
we still have outstanding recommendations regarding the risk 
assessment rules that TSA continues to use. I urge the 
administrator to consider whether or not those risk rules are 
effective and ensure the safety of the transportation public.
    TSA also has the responsibility to oversee and regulate 
airport security provided by airport authorities. For example, 
in the case of airport worker vetting, TSA relies on airports 
to submit a complete and accurate aviation worker application 
data for vetting. In a recent audit we found that TSA does not 
ensure that airports have a robust verification process for 
criminal history, and authorization to work in the United 
States, or sufficiently track the results of their review. TSA 
also did not have an adequate monitoring process in place to 
ensure that airport operators properly adjudicated applicants' 
criminal histories.
    Mr. Chairman, this concludes my prepared statement. I 
welcome any questions that you or other Members of the 
committee may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                            October 8, 2015
    Good afternoon Chairman Katko, Ranking Member Rice, and Members of 
the subcommittee.
    Thank you for inviting me here today to discuss our work on the 
Transportation Security Administration (TSA). Our reviews have given us 
a perspective on the obstacles facing TSA in carrying out an 
important--but incredibly difficult--mission to protect the Nation's 
transportation systems and ensure freedom of movement for people and 
commerce.
    Throughout this year, I have testified--before this subcommittee 
and others--regarding my concerns about TSA's ability to execute its 
important mission. I highlighted the challenges TSA faced. I testified 
that these challenges were in almost every area of TSA's operations: 
Its problematic implementation of risk assessment rules, including its 
management of TSA PreCheck; failures in passenger and baggage screening 
operations, discovered in part through our covert testing program; 
TSA's controls over access to secure areas, including management of its 
access badge program; its management of the workforce integrity 
program; TSA's oversight over its acquisition and maintenance of 
screening equipment; and other issues we have discovered in the course 
of over 115 audit and inspection reports.
    My remarks were described as ``unusually blunt testimony from a 
Government witness,'' and I will confess that it was. However, those 
remarks were born of frustration that TSA was assessing risk 
inappropriately and did not have the ability to perform basic 
management functions in order to meet the mission the American people 
expect of it. These issues were exacerbated, in my judgment, by a 
culture, developed over time, which resisted oversight and was 
unwilling to accept the need for change in the face of an evolving and 
serious threat. We have been writing reports highlighting some of these 
problems for years without an acknowledgment by TSA of the need to 
correct its deficiencies.
    We may be in a very different place than we were in May. I am 
hopeful that Administrator Neffenger brings with him a new attitude 
about oversight. Ensuring transportation safety is a massive and 
complex problem, and there is no silver bullet to solve it. It will 
take a sustained and disciplined effort. However, the first step in 
fixing a problem is having the courage to critically assess the 
deficiencies in an honest and objective light. Creating a culture of 
change within TSA, and giving the TSA workforce the ability to identify 
and address risks without fear of retribution, will be the new 
administrator's most critical and challenging task.
    I believe that the Department and TSA leadership have begun the 
process of critical self-evaluation and, aided by the dedicated 
workforce of TSA, are in a position to begin addressing some of these 
issues. I am hopeful that the days of TSA sweeping its problems under 
the rug and simply ignoring the findings and recommendations of the OIG 
and GAO are coming to an end.
    I have been gratified by the Department's response and believe that 
this episode serves as an illustration of the value of the Office of 
Inspector General, particularly when coupled with a Department 
leadership that understands and appreciates objective and independent 
oversight.
                     our most recent covert testing
    We have just completed and distributed our report on our most 
recent round of covert testing. The results are classified at the 
Secret level, and the Department and this committee have been provided 
a copy of our Classified report. TSA justifiably classifies at the 
Secret level the validated test results; any analysis, trends, or 
comparison of the results of our testing; and specific vulnerabilities 
uncovered during testing. Additionally, TSA considers other information 
protected from disclosure as Sensitive Security Information.
    While I cannot talk about the specifics in this setting, I am able 
to say that we conducted the audit with sufficient rigor to satisfy the 
standards contained within the Generally Accepted Government Auditing 
Standards, that the tests were conducted by auditors within our Office 
of Audits without any special knowledge or training, and that the test 
results were disappointing and troubling. We ran multiple tests at 8 
different airports of different sizes, including large Category X 
airports across the country, and tested airports using private 
screeners as part of the Screening Partnership Program. The results 
were consistent across every airport.
    Our testing was designed to test checkpoint operations in real-
world conditions. It was not designed to test specific, discrete 
segments of checkpoint operations, but rather the system as a whole. 
The failures included failures in the technology, failures in TSA 
procedures, and human error. We found layers of security simply 
missing. It would be misleading to minimize the rigor of our testing, 
or to imply that our testing was not an accurate reflection of the 
effectiveness of the totality of aviation security.
    The results were not, however, unexpected. We had conducted other 
covert testing in the past:
  <bullet> In September 2014, we conducted covert testing of the 
        checked baggage screening system and identified significant 
        vulnerabilities in this area caused by human and technology 
        based failures. We also determined that TSA did not have a 
        process in place to assess or identify the cause for equipment-
        based test failures or the capability to independently assess 
        whether deployed explosive detection systems are operating at 
        the correct detection standards. We found that, notwithstanding 
        an intervening investment of over $550 million, TSA had not 
        improved checked baggage screening since our 2009 report on the 
        same issue. (Vulnerabilities Exist in TSA's Checked Baggage 
        Screening Operations, OIG-14-142, Sept. 2014)
  <bullet> In January 2012, we conducted covert testing of access 
        controls to secure airport areas and identified significant 
        access control vulnerabilities, meaning uncleared individuals 
        could have unrestricted and unaccompanied access to the most 
        vulnerable parts of the airport--the aircraft and checked 
        baggage. (Covert Testing of Access Controls to Secured Airport 
        Areas, OIG-12-26, Jan. 2012)
  <bullet> In 2011, we conducted covert penetration testing on the 
        previous generation of AIT machines in use at the time; the 
        testing was far broader than the most recent testing, and 
        likewise discovered significant vulnerabilities. (Penetration 
        Testing of Advanced Imaging Technology, OIG-12-06, Nov. 2011)
                            the dhs response
    The Department's response to our most recent findings has been 
swift and definite. For example, within 24 hours of receiving 
preliminary results of OIG covert penetration testing, the Secretary 
summoned senior TSA leadership and directed that an immediate plan of 
action be created to correct deficiencies uncovered by our testing. 
Moreover, DHS has initiated a program--led by members of Secretary 
Johnson's leadership team--to conduct a focused analysis on issues that 
the OIG has uncovered, as well as other matters. These efforts have 
already resulted in significant changes to TSA leadership, operations, 
training, and policy, although the specifics of most of those changes 
cannot be discussed in an open setting, and should, in any event, come 
from TSA itself.
    TSA has put forward a plan, consistent with our recommendations, to 
improve checkpoint quality in three areas: Technology, personnel, and 
procedures. This plan is appropriate because the checkpoint must be 
considered as a single system: The most effective technology is useless 
without the right personnel, and the personnel need to be guided by the 
appropriate procedures. Unless all three elements are operating 
effectively, the checkpoint will not be effective.
    We will be monitoring TSA's efforts to increase the effectiveness 
of checkpoint operations and will continue to conduct covert testing. 
Consistent with our obligations under the Inspector General Act, we 
will report our results to this subcommittee as well as other 
committees of jurisdiction.
    We have also been making significant progress on many outstanding 
recommendations from prior reports.
                     tsa and the asymmetric threat
    Nowhere is the asymmetric threat of terrorism more evident than in 
the area of aviation security. TSA cannot afford to miss a single, 
genuine threat without potentially catastrophic consequences, and yet a 
terrorist only needs to get it right once. Securing the civil aviation 
transportation system remains a formidable task--TSA is responsible for 
screening travelers and baggage for over 1.8 million passengers a day 
at 450 of our Nation's airports. Complicating this responsibility is 
the constantly-evolving threat by adversaries willing to use any means 
at their disposal to incite terror.
    The dangers TSA must contend with are complex and not within its 
control. Recent media reports have indicated that some in the U.S. 
intelligence community warn terrorist groups like the Islamic State 
(ISIS) may be working to build the capability to carry out mass 
casualty attacks, a significant departure from--and posing a different 
type of threat--than simply encouraging lone-wolf attacks. According to 
these media reports, a mass casualty attack has become more likely in 
part because of a fierce competition with other terrorist networks: 
Being able to kill opponents on a large scale would allow terrorist 
groups such as ISIS to make a powerful showing. We believe such an act 
of terrorism would likely be designed to impact areas where people are 
concentrated and vulnerable, such as the Nation's commercial aviation 
system.
                    mere intelligence is not enough
    In the past, officials from TSA, in testimony to Congress, in 
speeches to think tanks, and elsewhere, have described TSA as an 
intelligence-driven organization. According to TSA, it continually 
assesses intelligence to develop countermeasures in order to enhance 
these multiple layers of security at airports and on-board aircraft. 
This is a necessary thing, but it is not sufficient.
    In the vast majority of the instances, the identities of those who 
commit terrorist acts were simply unknown to or misjudged by the 
intelligence community. Terrorism, especially suicide terrorism, 
depends on a cadre of newly-converted individuals who are often unknown 
to the intelligence community. Moreover, the threat of ISIS or al-
Qaeda-inspired actors--those who have no formal ties to the larger 
organizations but who simply take inspiration from them--increases the 
possibilities of a terrorist actor being unknown to the intelligence 
community.
    Recent history bears this out:
  <bullet> 17 of the 19 September 11 hijackers were unknown to the 
        intelligence community. In fact, many were recruited 
        specifically because they were unknown to the intelligence 
        community.
  <bullet> Richard Reid, the 2002 ``shoe bomber,'' was briefly 
        questioned by the French police, but allowed to board an 
        airplane to Miami. He had the high explosive PETN in his shoes, 
        and but for the intervention of passengers and flight crew, 
        risked bringing down the aircraft.
  <bullet> The Christmas day 2009 bomber, who was equipped with a 
        sophisticated non-metallic explosive device provided by al-
        Qaeda, was known to certain elements of the intelligence 
        community but was not placed in the Terrorist Screening 
        Database, on the Selectee List, or on the No-Fly List. A 
        bipartisan Senate report found there were systemic failures 
        across the intelligence community, which contributed to the 
        failure to identify the threat posed by this individual.
  <bullet> The single most high-profile domestic terrorist attack since 
        9/11, the Boston Marathon bombing, was masterminded and carried 
        out by Tamerlan Tsarnaev, an individual who approximately 2 
        years earlier was judged by the FBI not to pose a terrorist 
        threat, and who was not within any active U.S. Government 
        databases.
    Of course, there are instances in which intelligence can foil plots 
that screening cannot detect--such as the 2006 transatlantic aircraft 
plot, utilizing liquid explosives; the October 2010 discovery of U.S.-
bound bombs concealed in printer cartridges on cargo planes in England 
and Dubai; and the 2012 discovery that a second generation nonmetallic 
device, designed for use on-board aircraft, had been produced.
    What this means is that there is no easy substitute for the 
checkpoint. The checkpoint must necessarily be intelligence-driven, but 
the nature of terrorism today means that each and every passenger must 
be screened in some way.
                         beyond the checkpoint
    Much of the attention has been focused on the checkpoint, since 
that is the primary and most visible means of entry onto aircraft. But 
effective checkpoint operations simply are not of themselves 
sufficient. Aviation security must also look at other areas to 
determine vulnerabilities.
Assessment of passenger risk
    We applaud TSA's efforts to use risk-based passenger screening 
because it allows TSA to focus on high-risk or unknown passengers 
instead of known, vetted passengers who pose less risk to aviation 
security.
    However, we have had deep concerns about some of TSA's previous 
decisions about this risk. For example, we recently assessed the 
PreCheck initiative, which is used at about 125 airports to identify 
low-risk passengers for expedited airport checkpoint screening. 
Starting in 2012, TSA massively increased the use of PreCheck. Some of 
the expansion, for example allowing PreCheck to other Federal 
Government-vetted or known flying populations, such as those in the CBP 
Trusted Traveler Program, made sense. In addition, TSA continues to 
promote participation in PreCheck by passengers who apply, pay a fee, 
and undergo individualized security threat assessment vetting. I am 
encouraged by legislation, originating in this subcommittee, H.R. 2843, 
the TSA PreCheck Expansion Act, which I believe would further improve 
the use of PreCheck operations.
    However, we believe that TSA's use of risk assessment rules, which 
granted expedited screening to broad categories of individuals 
unrelated to an individual assessment of risk, but rather on some 
questionable assumptions about relative risk based on other factors, 
created an unacceptable risk to aviation security.\1\ Additionally, TSA 
used ``managed inclusion'' for the general public, allowing random 
passengers access to PreCheck lanes with no assessment of risk. 
Additional layers of security TSA intended to provide, which were meant 
to compensate for the lack of risk assessment, were often simply not 
present.
---------------------------------------------------------------------------
    \1\ As an example of PreCheck's vulnerabilities, we reported that, 
through risk assessment rules, a felon who had been imprisoned for 
multiple convictions for violent felonies while participating in a 
domestic terrorist group was granted expedited screening through 
PreCheck.
---------------------------------------------------------------------------
    We made a number of recommendations as a result of several audits 
and inspections. Disappointingly, when the report was issued, TSA did 
not concur with the majority of our 17 recommendations. At the time, I 
testified that I believed this represented TSA's failure to understand 
the gravity of the risk that they were assuming. I am pleased to 
report, however, that we have recently made significant progress in 
getting concurrence and compliance with these recommendations.
    For example, I am pleased to report that TSA's practice of using 
Managed Inclusion has been eliminated. As you know, this subcommittee 
held a hearing on the issue of expedited screening in March, at which I 
expressed my significant concerns. TSA disagreed with that finding 
notwithstanding our recommendation and continued to use Managed 
Inclusion. Now, however, I am pleased to report that TSA has reversed 
its decision.
    However, that report still has an outstanding recommendation 
regarding the risk assessment rules to grant expedited screening 
through PreCheck lanes. Unfortunately, TSA continues to use these risk 
rules.
    There is pending legislation originating in this subcommittee, H.R. 
3584--the Transportation Security Administration Reform and Improvement 
Act of 2015, which has been introduced--that would eliminate the 
practice. I urge the administrator to reconsider, in advance of the 
passage of this legislation, TSA's non-concurrence with our 
recommendation and stop the practice.
Access to secure areas
    TSA is responsible, in conjunction with the 450 airports across the 
country, to ensure that the secure areas of airports, including the 
ability to access aircraft and checked baggage, are truly secure. In 
our audit work, we have had reason to question whether that has been 
the case. We conducted covert testing in 2012 to see if auditors could 
get access to secure areas by a variety of means. While the results of 
those tests are Classified, they were similar to the other covert 
testing we have done, which was disappointing.
    Additionally, as we discuss below, TSA's oversight of airports when 
it comes to employee screening needs to be improved. (TSA Can Improve 
Aviation Worker Vetting (Redacted), OIG-15-98, June 2015)
    I have reviewed the work of this subcommittee as well, and am aware 
of the significant vulnerabilities that have been uncovered in the 
course of criminal investigations and this subcommittee's hearings. We 
are encouraged by the introduction of H.R. 3102, the Airport Access 
Control Security Improvement Act of 2015, which requires TSA to 
establish a risk-based screening model for airport employees, to look 
at the current list of disqualifying offenses, to improve the auditing 
procedures TSA uses to check on airport badging operations, and to make 
other improvements.
    We are doing additional audit and inspection work in this area, 
determining whether controls over access media badges issued by airport 
operators is adequate. We are also engaging in an audit of the 
screening process for the Transportation Worker Identification 
Credential program (TWIC) to see whether it is operating effectively 
and whether the program's continued eligibility processes ensures that 
only eligible TWIC card holders remain eligible.
Other questionable investments in aviation security
    TSA uses behavior detection officers to identify passenger 
behaviors that may indicate stress, fear, or deception. This program, 
Screening Passengers by Observation Techniques (SPOT), includes more 
than 2,800 employees and has cost taxpayers about $878 million from 
fiscal years 2007 through 2012.
    We understand the desire to have such a program. Israel is foremost 
in their use of non-physical screening, although the differences in 
size, culture, and attitudes about civil liberties make such a program 
difficult to adopt in this country. In the United States, sharp-eyed 
Government officials were able to assess behavior to prevent entry to 
terrorists on two separate occasions:
  <bullet> Ahmed Ressam's plot to blow up the Los Angeles International 
        Airport on New Year's Eve 1999 was foiled when a U.S. Customs 
        officer in Port Angeles, Washington, thought Ressam was acting 
        ``hinky'' and directed a search of his car, finding numerous 
        explosives and timers.
  <bullet> In 2001, a U.S. immigration officer denied entry to the 
        United States to Mohammed al Qahtani, based on Qahtani's 
        evasive answers to his questions. Later investigation by the 9/
        11 Commission revealed that Qahtani was to be the 20th 
        hijacker, assigned to the aircraft that ultimately crashed in 
        Shanksville, Pennsylvania.
    However, we have deep concerns that the current program is both 
expensive and ineffective. In 2013, we audited the SPOT program and 
found that TSA could not ensure that passengers were screened 
objectively, nor could it show that the program was cost-effective or 
merited expansion. We noted deficiencies in selection and training of 
the behavior detection officers. Further, in a November 2013 report on 
the program, the Government Accountability Office (GAO) reported that 
TSA risked funding activities that had not been determined to be 
effective. Specifically, according to its analysis of more than 400 
studies, GAO concluded that SPOT program behavioral indicators might 
not be effective in identifying people who might pose a risk to 
aviation security. TSA has taken steps to implement our recommendations 
and improve the program. However, we continue to have questions with 
regard to the program and this fiscal year will conduct a Verification 
Review, with regard to--among other things--performance management, 
training, and financial accountability, and selection, allocation, and 
performance of the Behavior Detection Officers.
    Likewise, the Federal Air Marshal Program costs the American 
taxpayer over $800 million per year. The program was greatly expanded 
after 9/11 to guard against a specific type of terrorist incident. In 
the intervening years, terrorist operations and intentions have 
evolved. We will be auditing the Federal Air Marshal Program this year 
to determine whether the significant investment of resources in the 
program is justified by the risk.
TSA's role as regulator
    TSA has dual responsibilities, one to provide checkpoint security 
for passengers and baggage and another to oversee and regulate airport 
security provided by airport authorities. The separation of 
responsibility for airport security between TSA and the airport 
authorities creates a potential vulnerability in safeguarding the 
system. The concern about which entity is accountable for protecting 
areas other than checkpoints has come up in relation to airport worker 
vetting, perimeter security, and cargo transport. We have also assessed 
whether TSA is appropriately regulating airports, such as whether it 
ensures airports' compliance with security regulations. We have found 
shortfalls.
    In the case of airport worker vetting, for example, TSA relies on 
airports to submit complete and accurate aviation worker application 
data for vetting. In a recent audit, we found TSA does not ensure that 
airports have a robust verification process for criminal history and 
authorization to work in the United States, or sufficiently track the 
results of their reviews. TSA also did not have an adequate monitoring 
process in place to ensure that airport operators properly adjudicated 
credential applicants' criminal histories. TSA officials informed us 
that airport officials rarely or almost never documented the results of 
their criminal history reviews electronically. Without sufficient 
documentation, TSA cannot systematically determine whether individuals 
with access to secured areas of the airports are free of disqualifying 
criminal events.
    As a result, TSA is required to conduct manual reviews of aviation 
worker records. Due to the workload at larger airports, this inspection 
process may look at as few as 1 percent of all aviation workers' 
applications. In addition, inspectors were generally reviewing files 
maintained by the airport badging office, which contained photocopies 
of aviation worker documents rather than the physical documents 
themselves. An official told us that a duplicate of a document could 
hinder an inspector's ability to determine whether a document is real 
or fake because a photocopy may not be matched to a face and may not 
show the security elements contained in the identification document.
    Additionally, we identified thousands of aviation worker records 
that appeared to have incomplete or inaccurate biographic information. 
Without sufficient documentation of criminal histories or reliable 
biographical data, TSA cannot systematically determine whether 
individuals with access to secured areas of the airports are free of 
disqualifying criminal events, and TSA has thus far not addressed the 
poor data quality of these records. (TSA Can Improve Aviation Worker 
Vetting (Redacted), OIG-15-98, June 2015)
    Further, the responsibility for executing perimeter and airport 
facility security is in the purview of the 450 local airport 
authorities rather than TSA. There is no clear structure for 
responsibility, accountability, and authority at most airports, and the 
potential lack of local Government resources makes it difficult for TSA 
to issue and enforce higher standards to counter new threats. 
Unfortunately, intrusion prevention into restricted areas and other 
ground security vulnerabilities is a lower priority than checkpoint 
operations.
                               conclusion
    Making critical changes to TSA's culture, technology, and processes 
is not an easy undertaking. However, a commitment to and persistent 
movement towards effecting such changes--including continued progress 
towards complying with our recommendations--is paramount to ensuring 
transportation security. We recognize and are encouraged by TSA's steps 
towards compliance with our recent recommendations. Without a sustained 
commitment to addressing known vulnerabilities, the agency risks 
compromising the safety of the Nation's transportation systems.
    Mr. Chairman, this concludes my prepared statement. I welcome any 
questions you or other Members of the subcommittee may have.
    Appendix A.--Recent OIG Reports on the Transportation Security 
                             Administration
Covert Testing of the TSA's Passenger Screening Technologies and 
Processes at Airport Security Checkpoints (Unclassified Summary), OIG-
15-150, September 2015
Use of Risk Assessment within Secure Flight (Redacted), OIG-14-153, 
June 2015
TSA Can Improve Aviation Worker Vetting (Redacted), OIG-15-98, June 
2015
The Transportation Security Administration Does Not Properly Manage Its 
Airport Screening Equipment Maintenance Program, OIG-15-86, May 2015
Allegation of Granting Expedited Screening through TSA PreCheck 
Improperly (Redacted), OIG-15-45, March 2015
Security Enhancements Needed to the TSA PreCheck Initiative 
(Unclassified Summary), OIG-15-29, January 2015
Vulnerabilities Exist in TSA's Checked Baggage Screening Operations 
(Unclassified Spotlight), OIG-14-142, September 2014
Appendix B.--Status of Recommendations for Selected OIG Reports on TSA 
                            (As of 9.22.15)

--------------------------------------------------------------------------------------------------------------------------------------------------------
            Report No.                    Report Title          Date Issued            Recommendation             Current Status        Mgmt. Response
--------------------------------------------------------------------------------------------------------------------------------------------------------
OIG-11-47........................  DHS Department-wide              3/2/2011  We recommend that the Deputy     Closed..............  Agreed.
                                    Management of Detection                    Under Secretary for Management
                                    Equipment.                                 reestablish the Joint
                                                                               Requirements Council.
OIG-11-47........................  DHS Department-wide              3/2/2011  We recommend that the Deputy     Closed..............  Agreed.
                                    Management of Detection                    Under Secretary for
                                    Equipment.                                 Management: Establish a
                                                                               commodity council for
                                                                               detection equipment,
                                                                               responsible for: Coordinating,
                                                                               communicating, and, where
                                                                               appropriate, strategically
                                                                               sourcing items at the
                                                                               Department level or
                                                                               identifying a single-source
                                                                               commodity manager;
                                                                               Standardizing purchases for
                                                                               similar detection equipment;
                                                                               and Developing a data
                                                                               dictionary that standardizes
                                                                               data elements in inventory
                                                                               accounts for detection
                                                                               equipment.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed..............  Agreed.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed..............  No Response.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed*.............  Agreed.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed*.............  Agreed.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed..............  Agreed.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed..............  Agreed.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed..............  Agreed.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-12-06........................  Transportation Security        11/21/2011  Recommendation includes          Closed..............  Agreed.
                                    Administration                             Sensitive Security Information.
                                    Penetration Testing of
                                    Advanced Imaging
                                    Technology.
OIG-13-91........................  Transportation Security         5/29/2013  We recommend that the Assistant  Closed..............  Agreed.
                                    Administration's                           Administrator, Office of
                                    Screening of Passengers                    Security Capabilities develop
                                    by Observation                             and implement a comprehensive
                                    Techniques.                                strategic plan for the
                                                                               Screening of Passengers by
                                                                               Observation Techniques (SPOT)
                                                                               program that includes--
                                                                               Mission, goals, objectives,
                                                                               and a system to measure
                                                                               performance; A training
                                                                               strategy that addresses the
                                                                               goals and objectives of the
                                                                               SPOT program; A plan to
                                                                               identify external partners
                                                                               integral to program success,
                                                                               such as law enforcement
                                                                               agencies, and take steps to
                                                                               ensure that effective
                                                                               relationships are established;
                                                                               and, A financial plan that
                                                                               includes identification of
                                                                               priorities, goals, objectives,
                                                                               and measures; needs analysis;
                                                                               budget formulation and
                                                                               execution; and expenditure
                                                                               tracking.
OIG-13-91........................  Transportation Security         5/29/2013  We recommend that the Assistant  Closed..............  Agreed.
                                    Administration's                           Administrator, Office of
                                    Screening of Passengers                    Security Capabilities develop
                                    by Observation                             and implement controls to
                                    Techniques.                                ensure completeness, accuracy,
                                                                               authorization, and validity of
                                                                               referral data entered into the
                                                                               Performance Measurement
                                                                               Information System.
OIG-13-91........................  Transportation Security         5/29/2013  We recommend that the Assistant  Closed..............  Agreed.
                                    Administration's                           Administrator, Office of
                                    Screening of Passengers                    Security Capabilities develop
                                    by Observation                             and implement a plan that
                                    Techniques.                                provides recurrent training to
                                                                               Behavior Detection Officer
                                                                               (BDO) instructors and BDOs.
OIG-13-91........................  Transportation Security         5/29/2013  We recommend that the Assistant  Closed..............  Agreed.
                                    Administration's                           Administrator, Office of
                                    Screening of Passengers                    Security Capabilities develop
                                    by Observation                             and implement a plan to assess
                                    Techniques.                                BDO instructor performance in
                                                                               required core competencies on
                                                                               a regular basis.
OIG-13-91........................  Transportation Security         5/29/2013  We recommend that the Assistant  Closed..............  Agreed.
                                    Administration's                           Administrator, Office of
                                    Screening of Passengers                    Security Capabilities monitor
                                    by Observation                             and track the use of BDOs for
                                    Techniques.                                non-SPOT related duties to
                                                                               ensure BDOs are used in a cost-
                                                                               effective manner and in
                                                                               accordance with the mission of
                                                                               the SPOT program.
OIG-13-91........................  Transportation Security         5/29/2013  We recommend that the Assistant  Closed..............  Agreed.
                                    Administration's                           Administrator, Office of
                                    Screening of Passengers                    Security Capabilities develop
                                    by Observation                             and implement a process for
                                    Techniques.                                identifying and addressing
                                                                               issues that may directly
                                                                               affect the success of the SPOT
                                                                               program such as the selection,
                                                                               allocation, and performance of
                                                                               BDOs.
OIG-13-99........................  Transportation Security         6/20/2013  We recommend that the            Closed..............  Agreed.
                                    Administration's                           Transportation Security
                                    Screening Partnership                      Administration Deputy
                                    Program.                                   Administrator expedite
                                                                               developing and implementing
                                                                               procedures to ensure that
                                                                               decisions on Screening
                                                                               Partnership Program
                                                                               applications and procurements
                                                                               are fully documented according
                                                                               to applicable Department and
                                                                               Federal guidance.
OIG-13-99........................  Transportation Security         6/20/2013  We recommend that the            Closed..............  Agreed.
                                    Administration's                           Transportation Security
                                    Screening Partnership                      Administration Deputy
                                    Program.                                   Administrator establish and
                                                                               implement quality assurance
                                                                               procedures to ensure that the
                                                                               most relevant and accurate
                                                                               information is used when
                                                                               determining eligibility and
                                                                               approving airports'
                                                                               participation in the Screening
                                                                               Partnership Program.
OIG-13-120.......................  Transportation Security         9/16/2013  We recommend that the Deputy     Closed..............  Agreed.
                                    Administration's                           Administrator, Transportation
                                    Deployment and Use of                      Security Administration:
                                    Advanced Imaging                           Develop and approve a single,
                                    Technology.                                comprehensive deployment
                                                                               strategy that addresses short-
                                                                               and long-term goals for
                                                                               screening equipment.
OIG-13-120.......................  Transportation Security         9/16/2013  We recommend that the Deputy     Closed*.............  Agreed.
                                    Administration's                           Administrator, Transportation
                                    Deployment and Use of                      Security Administration:
                                    Advanced Imaging                           Develop and implement a
                                    Technology.                                disciplined system of internal
                                                                               controls from data entry to
                                                                               reporting to ensure PMIS data
                                                                               integrity.
OIG-14-142.......................  (U) Vulnerabilities Exist        9/9/2014  This recommendation is           Closed..............  Agreed.
                                    in TSA's Checked Baggage                   Classified.
                                    Screening Operations.
OIG-14-142.......................  (U) Vulnerabilities Exist        9/9/2014  This recommendation is           Open--Resolved......  Agreed.
                                    in TSA's Checked Baggage                   Classified.
                                    Screening Operations.
OIG-14-142.......................  (U) Vulnerabilities Exist        9/9/2014  This recommendation is           Closed*.............  Agreed.
                                    in TSA's Checked Baggage                   Classified.
                                    Screening Operations.
OIG-14-142.......................  (U) Vulnerabilities Exist      12/16/2014  This recommendation is           Open--Resolved......  Agreed.
                                    in TSA's Checked Baggage                   Classified.
                                    Screening Operations.
OIG-14-142.......................  (U) Vulnerabilities Exist      12/16/2014  This recommendation is           Open--Unresolved....  Agreed.
                                    in TSA's Checked Baggage                   Classified.
                                    Screening Operations.
OIG-14-153.......................  Use of Risk Assessment           9/9/2014  Recommendation includes          Open--Resolved......  Agreed.**
                                    within Secure Flight.                      Sensitive Security Information.
OIG-14-153.......................  Use of Risk Assessment           9/9/2014  Recommendation includes          Closed..............  Agreed.
                                    within Secure Flight.                      Sensitive Security Information.
OIG-14-153.......................  Use of Risk Assessment           9/9/2014  Recommendation includes          Closed*.............  Agreed.**
                                    within Secure Flight.                      Sensitive Security Information.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Unresolved....  Disagreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved......  Agreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved......  Agreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved......  Agreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved......  Agreed.**
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved......  Agreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved*.....  Agreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Closed*.............  Agreed.**
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved......  Agreed.**
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  We recommend that the TSA        Open--Resolved*.....  Agreed.**
                                    Needed to the TSA                          Assistant Administrator for
                                    PreCheckTM Initiative.                     the Office of Intelligence and
                                                                               Analysis: Employ exclusion
                                                                               factors to refer TSA
                                                                               PreCheckTM passengers to
                                                                               standard security lane
                                                                               screening at random intervals.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Closed*.............  Agreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Closed*.............  Agreed.
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  We recommend that the TSA        Open--Resolved......  Agreed.**
                                    Needed to the TSA                          Assistant Administrator for
                                    PreCheckTM Initiative.                     the Office of Security
                                                                               Operations: Develop and
                                                                               implement a strategy to
                                                                               address the TSA PreCheckTM
                                                                               lane covert testing results.
OIG-15-29........................  Security Enhancements           1/28/2015  Recommendation includes          Open--Resolved......  Agreed.**
                                    Needed to the TSA                          Sensitive Security Information.
                                    PreCheckTM Initiative.
OIG-15-29........................  Security Enhancements           1/28/2015  We recommend that the TSA        Open--Resolved......  Agreed.
                                    Needed to the TSA                          Assistant Administrator for
                                    PreCheckTM Initiative.                     the Office of Intelligence and
                                                                               Analysis: Provide an
                                                                               explanation of TSA PreCheckTM
                                                                               rules and responsibilities to
                                                                               all enrollment center
                                                                               applicants and include this
                                                                               information in eligibility
                                                                               letters.
OIG-15-29........................  Security Enhancements           1/28/2015  We recommend that the TSA        Open--Resolved......  Agreed.**
                                    Needed to the TSA                          Assistant Administrator for
                                    PreCheckTM Initiative.                     the Office of Intelligence and
                                                                               Analysis: Coordinate with
                                                                               Federal Government and private
                                                                               partners to ensure all TSA
                                                                               PreCheckTM eligible
                                                                               populations receive the rules
                                                                               and responsibilities when
                                                                               notifying participants of
                                                                               eligibility.
OIG-15-29........................  Security Enhancements           1/28/2015  We recommend that the TSA Chief  Open--Resolved......  Agreed.
                                    Needed to the TSA                          Risk Officer: Develop
                                    PreCheckTM Initiative.                     consolidated guidance
                                                                               outlining processes and
                                                                               procedures for all offices
                                                                               involved in the TSA PreCheckTM
                                                                               initiative.
OIG-15-45........................  Allegations of Granting         3/16/2015  Recommendation includes          Open--Unresolved....  Disagreed.
                                    Expedited Screening                        Sensitive Security Information.
                                    through TSA PreCheck
                                    Improperly (OSC File No.
                                    DI-14-3679).
OIG-15-45........................  Allegations of Granting         3/16/2015  We recommend that the TSA        Closed*.............  Agreed.
                                    Expedited Screening                        Assistant Administrator for
                                    through TSA PreCheck                       Security Operations: Modify
                                    Improperly (OSC File No.                   standard operating procedures
                                    DI-14-3679).                               to clarify Transportation
                                                                               Security Officer (TSO) and
                                                                               supervisory TSO authority to
                                                                               refer passengers with TSA
                                                                               PreCheck boarding passes to
                                                                               standard screening lanes when
                                                                               they believe that the
                                                                               passenger should not be
                                                                               eligible for TSA PreCheck
                                                                               screening.
OIG-15-86........................  The Transportation               5/6/2015  We recommend that TSA's Office   Open--Resolved*.....  Agreed.
                                    Security Administration                    of Security Capabilities and
                                    Does Not Properly Manage                   Office of Security Operations
                                    Its Airport Screening                      develop and implement a
                                    Equipment Maintenance                      preventive maintenance
                                    Program.                                   validation process to verify
                                                                               that required routine
                                                                               maintenance activities are
                                                                               completed according to
                                                                               contractual requirements and
                                                                               manufacturers' specifications.
                                                                               These procedures should also
                                                                               include instruction for
                                                                               appropriate TSA airport
                                                                               personnel on documenting the
                                                                               performance of Level 1
                                                                               preventive maintenance actions.
OIG-15-86........................  The Transportation               5/6/2015  We recommend that TSA's Office   Open--Resolved*.....  Agreed.
                                    Security Administration                    of Security Capabilities and
                                    Does Not Properly Manage                   Office of Security Operations:
                                    Its Airport Screening                      Develop and implement policies
                                    Equipment Maintenance                      and procedures to ensure that
                                    Program.                                   local TSA airport personnel
                                                                               verify and document
                                                                               contractors' completion of
                                                                               corrective maintenance
                                                                               actions. These procedures
                                                                               should also include quality
                                                                               assurance steps that would
                                                                               ensure the integrity of the
                                                                               information collected.
OIG-15-86........................  The Transportation               5/6/2015  We recommend TSA's Office of     Open--Resolved*.....  Agreed.
                                    Security Administration                    Acquisition enhance future
                                    Does Not Properly Manage                   screening equipment
                                    Its Airport Screening                      maintenance contracts by
                                    Equipment Maintenance                      including penalties for
                                    Program.                                   noncompliance when it is
                                                                               determined that either
                                                                               preventive or corrective
                                                                               maintenance has not been
                                                                               completed according to
                                                                               contractual requirements and
                                                                               manufacturers' specifications.
--------------------------------------------------------------------------------------------------------------------------------------------------------
* These recommendations were either resolved or closed within the last 6 months.
** TSA management changed their response from disagreed to agreed.

            Appendix C.--Current and Planned OIG Work on TSA

                          PROJECTS IN-PROGRESS
------------------------------------------------------------------------
             Project Topic                          Objective
------------------------------------------------------------------------
TSA Security Vetting of Passenger Rail   Determine the extent to which
 Reservation Systems.                     TSA has policies, processes,
                                          and oversight measures to
                                          improve security at the
                                          National Railroad Passenger
                                          Corporation (AMTRAK).
Reliability of TWIC Background Check     Determine whether the screening
 Process.                                 process for the Transportation
                                          Worker Identification
                                          Credential program (TWIC) is
                                          operating effectively and
                                          whether the program's
                                          continued eligibility
                                          processes ensure that only
                                          eligible TWIC card holders
                                          remain eligible.
TSA's Security Technology Integrated     Determine whether TSA has
 Program (STIP).                          incorporated adequate IT
                                          security controls for
                                          passenger and baggage
                                          screening STIP equipment to
                                          ensure it is performing as
                                          required.
TSA's Controls Over Access Media Badges  Identify and test selected
                                          controls over access media
                                          badges issued by airport
                                          operators.
TSA's Risk-Based Strategy..............  Determine the extent to which
                                          TSA's intelligence-driven,
                                          risk-based strategy informs
                                          security and resource
                                          decisions to protect the
                                          traveling public and the
                                          Nation's transportation
                                          systems.
TSA's Office of Human Capital Contracts  Determine whether TSA's human
                                          capital contracts are managed
                                          effectively, comply with DHS's
                                          acquisition guidelines, and
                                          are achieving expected goals.
------------------------------------------------------------------------


                            UPCOMING PROJECTS
------------------------------------------------------------------------
             Project Topic                          Objective
------------------------------------------------------------------------
Federal Air Marshal Service's Oversight  Determine whether the Federal
 of Civil Aviation Security.              Air Marshal Service adequately
                                          manages its resources to
                                          detect, deter, and defeat
                                          threats to the civil aviation
                                          system.
TSA Carry-On Baggage Penetration         Determine the effectiveness of
 Testing.                                 TSA's carry-on baggage
                                          screening technologies and
                                          checkpoint screener
                                          performance in identifying and
                                          resolving potential security
                                          threats at airport security
                                          checkpoints.
Airport Security Capping Report........  Synthesize the results of our
                                          airport security evaluations
                                          into a capping report that
                                          groups and summarizes
                                          identified weaknesses and root
                                          causes and recommends how TSA
                                          can systematically and
                                          proactively address these
                                          issues at airports Nation-
                                          wide.
TSA's Classification Program...........  Determine whether TSA is
                                          effectively managing its
                                          classification program and its
                                          use of the Sensitive Security
                                          Information designation.
TSA's Office of Intelligence and         Determine whether TSA's Office
 Analysis.                                of Intelligence and Analysis
                                          is effectively meeting its
                                          mission mandates.
------------------------------------------------------------------------


    Mr. Katko. Those questions are indeed forthcoming, but 
before that Mr. Roth, I want to thank you for your testimony. I 
appreciate you being here.
    I want to hear from our second witness, Administrator 
Neffenger, who I am sure the honeymoon is indeed over. You were 
confirmed in June 2015 as the sixth administrator of the TSA. 
You lead the security operations at more than 450 airports 
within the United States, and a workforce of almost 60,000 
employees. Prior to joining TSA, Administrator Neffenger served 
admirably as the 29th vice commandant of the U.S. Coast Guard, 
and the Coast Guard's deputy commandant for operations. The 
Chair now recognizes Admiral Neffenger for his testimony.

  STATEMENT OF THE HONORABLE PETER NEFFENGER, ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Admiral Neffenger. Thank you, and good afternoon Chairman 
Katko, Ranking Member Rice, distinguished Members of the 
subcommittee, and thank you for the opportunity to testify on 
my vision for answering these concerns and evolving the 
Transportation Security Administration.
    As you noted, Mr. Chairman, TSA was founded from crisis, 
and has continued to evolve throughout its existence. Careful 
and sustained oversight by Congress, and audits by the 
Inspector General and GAO are critical elements of this 
process, and I am a strong supporter of such. I thank you for 
the support each of you has provided in exercising that 
oversight. I also want to thank Inspector General Roth for 
identifying areas for improvement in TSA. I met with him prior 
to my confirmation and met with him again during my first month 
as administrator to relay the seriousness with which I take his 
work. His team has been invaluable in helping us to identify 
the root causes of the recent covert testing results, and I 
thank him for his encouraging assessment of our new direction.
    That direction is a reflection of my vision on how we 
approach the continuing evolution of TSA. As you noted, I am 
now 3 months into the job, and during that time, I have 
traveled to about 15 airports and numerous Federal Air Marshal 
offices across the country. I have also visited our partners in 
the United Kingdom, France, and the Netherlands, and I met with 
our stakeholders from the airlines, travel industry, and 
airport operators from major airports, including Los Angeles, 
Atlanta, Dallas, and Chicago. I have also been engaging with 
surface stakeholders and passenger rail and light rail both 
here and in Europe.
    Throughout all of these visits, I have been thoroughly 
impressed with the professionals who occupy our ranks. I am 
speaking specifically of our front-line transportation security 
officers. In addition to our air marshals, our inspectors, and 
other employees, each of whom swore an oath to serve their 
Nation in a mission that encounters nearly 2 million travelers 
a day in the aviation sector alone. I have been impressed with 
the collaboration I have seen across the transportation 
enterprise and I am pleased that the range of capabilities our 
Federal, State, and local partners bring to bear across every 
sector.
    These complex systems require that we systematically 
examine them and consider them as a whole; that we integrate 
this wide range of public and private capabilities, that we 
benchmark and apply best practices across the enterprise, and 
that we seek global consistency.
    I can assure you that as we move forward, we remain an 
intelligence-driven, risk-based counterterrorism agency with a 
well-defined statement of mission, clear and unequivocal 
standards of performance, training, and resourcing that enabled 
the workforce to achieve success, and a relentless pursuit of 
excellence and accountability.
    We will conduct counterterrorism operations with discipline 
and competence. We will invest in deliberately developing our 
workforce, and we will field advance capabilities responsive to 
a pervasive and dynamic threat. We have a no-fail mission, one 
for which the consequences of a successful attack overwhelm the 
risk equation and for which we must ensure we deliver mission 
success.
    My immediate priority is to pursue solutions to the recent 
covert testing failures and I believe we are making significant 
progress in doing so. In response to the IG's findings, we have 
implemented an action plan to ensure leadership accountability, 
improve alarm resolution, increase effectiveness and 
deterrence, increase threat testing, and strengthen our 
procedures.
    We have also responded vigorously to Secretary Johnson's 
10-point plan to review and assess screening operations, 
including training for the entire screening workforce, testing 
and improving the technology, and implementing these new 
procedures. We will continue to implement this plan of action 
and provide regular updates to you and to the Secretary.
    Of utmost concern is determining root causes for the 
failures noted. Our conclusion is that the screening 
effectiveness challenges were not merely a performance problem, 
nor were they a failure of the advanced imaging technology. 
Indeed, this technology has greatly enhanced our ability to 
detect threats and it continues to perform to expected 
standards when deployed and used properly.
    Strong drivers of the problem, however, include leadership 
focus, environmental influences, and gaps in system design and 
processes along with a disproportionate focus on efficiency and 
speed in screening operations rather than security and 
effectiveness. These powerfully influenced organizational 
culture and officer performance. As a result, there was 
significant pressure to clear passengers quickly at the risk of 
not diligently resolving alarms.
    Our analysis also revealed our officers did not fully 
understand the capabilities and limitations of the equipment 
and several procedures were inadequate to resolve alarms. We 
have trained our officers to understand and use the equipment 
properly and we have corrected our procedures. Solutions 
require a renewed focus on security, streamlined effective 
procedures, investments in technology, and realistic, 
consistent, standardized training along with a new balance 
between effectiveness and efficiency. We must support our 
officers as they perform their duties.
    We will continue to partner with our airlines and other 
members of the travel and airport industry to ensure that we 
can reduce stress on the checkpoint and we will right-size and 
re-source TSA appropriately. Our near-term solutions will halt 
further reductions in officer staffing to support our revised 
screening efforts, provide consistent high-quality training at 
a centralized location, and enhance our technology.
    Our Mission Essentials Training conducted over the past 2 
months with every front-line officer and leader across TSA has 
helped to reset our focus on security effectiveness, and most 
critically, has enhanced our officers' knowledge of the 
screening systems that they operate.
    I refer repeatedly how valuable this information is to our 
officers. I need to now extend that into our new-hire training 
across the country. We need greater consistency and efficiency 
in its delivery, and we must do more to establish a 
professional foundation that is required of a high-performing 
counterterrorism organization.
    As such, I am committed to expanding our existing TSA 
Academy at the Federal Law Enforcement Training Center and plan 
to send all new-hire TSOs to basic training beginning in 
January 2016. Centralized training in a formal, professional 
academy ensures consistency and professionalism, produces 
greater enthusiasm, increased confidence and skills, and 
connectedness to a common agency culture and focus on mission.
    We must ensure the appropriate measures of effectiveness 
are in place to drive an institutional focus on our primary 
mission. We must employ a culture of operational evolution, one 
that constantly reassesses assumptions, plans, and processes, 
so we are able to rapidly field new concepts of operation and 
we must deliver an effective system and earn the confidence of 
the traveling public through competence, discipline, 
performance, and professionalism.
    We face a critical turning point in evolving TSA, both to 
address these recent findings and begin our investment in a 
strategic approach to securing the transportation sector. As 
such, I am committed to ensuring that we do so, that we employ 
multiple elements in intelligence-driven operations, while 
discarding a one-size-fits-all approach that we recruit and 
retain a highly-trained workforce, with accountability and high 
standards of performance.
    Chairman Katko, Ranking Member Rice, we have an incredible 
challenge ahead of us, but I know that TSA is up to the task. I 
thank you for the opportunity to appear before you today, and I 
look forward to your questions.
    [The prepared statement of Admiral Neffenger follows:]
                 Prepared Statement of Peter Neffenger
                            October 8, 2015
    Good afternoon Chairman Katko, Ranking Member Rice, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify on my vision for evolving the Transportation 
Security Administration (TSA).
    Since its creation following the terrorist attacks of September 11, 
2001, TSA has played an invaluable role in protecting the traveling 
public. Fourteen years after the 9/11 attacks, we face threats more 
dangerous than at any time in the recent past. Terrorist groups and 
aspiring violent extremists, inspired by messages of hatred and 
violence, remain intent on striking our Nation's aviation system as 
well as other transportation modes. The threat is decentralized, 
diffuse, and quite complex.
    These persistent and evolving threats are TSA's most pressing 
challenge and require an intense and sustained focus on our security 
missions. We remain deeply committed to ensuring that TSA remains a 
high-performing, risk-based intelligence-driven counterterrorism 
organization. We are working diligently to ensure we recruit, train, 
develop, and lead a mission ready and highly-capable workforce, placing 
a premium on professional values and personal accountability. Further, 
we will pursue advanced and innovative capabilities that our mission 
requires to deter, detect, and disrupt threats to our Nation's 
transportations systems, with a clear understanding that we must 
continue to optimize today's capabilities while envisioning future 
methods of achieving success.
    I am intently focused on leading TSA strategically, developing and 
supporting our workforce, and investing appropriately, to deliver on 
our vital security mission.
                improving aviation screening operations
    My highest priority for TSA is determining root causes and 
implementing solutions to address the recent covert testing of TSA's 
checkpoint operations and technology conducted by the Department of 
Homeland Security (DHS) Office of Inspector General (OIG). I was 
greatly disturbed by TSA's failure rate on these tests, and have met 
with the Inspector General on several occasions to better understand 
the nature of the failures and the scope of the corrective actions 
needed.
    Screening operations are a core mission of TSA. In fiscal year 
2014, our officers screened approximately 660 million passengers and 
nearly 2 billion carry-on and checked bags. Through their diligent 
daily efforts, our officers prevented over 180,000 dangerous and/or 
prohibited items, including over 2,200 firearms, from being carried 
onto planes. In addition, our workforce vetted a daily average of 6 
million air passengers against the United States. Government's 
Terrorist Screening Database, preventing those who may wish to do us 
harm from boarding aircraft, and conducting enhanced screening of 
passengers and their baggage prior to allowing them to board an 
aircraft. In conjunction with these screening efforts, and using 
intelligence-driven analysis, TSA's Federal Air Marshals also protected 
thousands of flights. To ensure compliance with aviation security 
requirements, in fiscal year 2014 TSA Inspectors completed over 1,054 
airport inspections, nearly 18,000 aircraft operator inspections, and 
almost 3,000 foreign air carrier inspections to ensure compliance with 
aviation security requirements. Still, as recent and prior testing 
shows, we must continue to formulate solutions that will enhance our 
effectiveness at checkpoint screening operations.
    It is important to acknowledge that the OIG covert tests, as a part 
of their design, focused on a discrete segment of TSA's myriad 
capabilities of detecting and disrupting threats to aviation security. 
TSA conducts similar, more extensive testing that is part of a 
deliberate process designed to defeat and subsequently improve our 
performance, processes, and screening technologies. TSA's covert 
testing program, along with the OIG's covert testing, provides 
invaluable lessons learned, highlighting areas in which the agency 
needs improvement in detecting threats. Such testing is an important 
element in the continual evolution of aviation security.
    As we pursue solutions to the challenges presented by recent and 
on-going covert testing, there are several critical concepts that must 
be in place. TSA must ensure that its value proposition is well-
defined, clearly-communicated, understood and applied across the entire 
workforce and mission enterprise. From my first day on the job, I have 
made it clear that we are first and foremost a security organization. 
Our mission is to deter, detect, and disrupt threats, and we must 
ensure every officer, inspector, air marshal, and member of our agency 
remains laser-focused on this mission. In addition, we must ensure the 
appropriate measures of effectiveness are in place to drive an 
institutional focus on the primary security objectives for all modes of 
transportation, and renewed emphasis on aviation measures.
    We have demonstrated our ability to efficiently screen passengers: 
However, it is clear that we now must improve our effectiveness. By 
focusing on the basic fundamentals of security screening, and by 
readjusting the measurements of success to focus on security rather 
than speed, and by measuring what we value most, we can adjust the 
institutional focus and adapt the culture to deliver success. TSA must 
adopt a culture of operational evolution, one that constantly questions 
assumptions, plans, and processes, and is able to rapidly field new 
concepts of operation, performance standards and capabilities, 
particularly given the persistent and adaptive enemy we face.
    To drive these important changes, it is essential to understand and 
assess appropriately the effectiveness of our aviation security 
enterprise, to rigorously pursue initiatives to quickly close 
capability and security gaps, and employ our own covert testing and 
vulnerability assessments. Delivering an effective security system and 
earning the confidence of the traveling public will come only through 
competence, disciplined performance, successful results, and 
professionalism. These imperatives are essential to address the 
immediate challenges, and more broadly, to accomplish the important 
mission entrusted to TSA.
    In late May, in response to the OIG initial findings, TSA developed 
and implemented an immediate action plan built on its understanding of 
the known vulnerabilities in checkpoint operations. Consisting of 
dozens of individual actions, it was designed to:
    (1) ensure leadership accountability;
    (2) improve alarm resolution;
    (3) increase effectiveness and deterrence;
    (4) increase threat testing to sharpen officer performance;
    (5) strengthen standard operating procedures;
    (6) improve the Advanced Imaging Technology (AIT) system;
    (7) deploy additional resolution tools; and
    (8) improve human factors, including enhanced training and 
        operational responses.
    Scheduled for completion in March 2016, TSA is actively engaged in 
implementing this plan of action and provides regular updates to the 
Secretary of Homeland Security as well as frequent updates to the 
Congress.
    There are a number of immediate actions that have been completed, 
including the following: (1) Requiring screening leadership at each 
airport to oversee AIT operations to ensure compliance with standard 
procedures; (2) requiring each officer to complete initial video-based 
training to reinforce proper alarm resolution conversations; (3) 
conducting leadership and officer same-day debriefs for threat inject 
testing and lessons learned; and (4) performing daily operational 
exercises and reinforcement of proper pat-down procedures at least once 
per shift to ensure optimal TSO performance.
                   secretary johnson's ten-point plan
    In addition to the TSA action plan, Department of Homeland Security 
Secretary Jeh Johnson directed a series of actions, which in 
cooperation with TSA, constituted a 10-point plan to address these 
findings. TSA is now working aggressively to accomplish these actions. 
The plan includes the following:
    
  <bullet> Briefing all Federal Security Directors at airports Nation-
        wide on the OIG's preliminary test results to ensure leadership 
        awareness and accountability. This was completed in May and 
        continues regularly. In September, I convened the leadership of 
        TSA--from across the agency and in every mission area--to 
        discuss our progress, to clearly convey my expectations, and to 
        outline my vision for the evolution of our counterterrorism 
        agency.
    
  <bullet> Training every Transportation Security Officer (TSO) and 
        supervisor to address the specific vulnerabilities identified 
        by the OIG tests. This training also is intended to reemphasize 
        the value and underscore the importance we place on the 
        security mission. The training will reemphasize the threat we 
        face, the design of our security system, integrating technology 
        with human expertise, the range of tools we employ to detect 
        threats, and the essential role our officers perform in 
        resolving alarms. Fundamentally, this training is intended to 
        explain the ``why'' behind our renewed and intense focus on 
        security effectiveness. We are also training supervisors and 
        leaders to ensure they appreciate and support the shift in 
        emphasis. Most important, we are asking our supervisors to 
        recognize their critical role in supporting our officers' 
        renewed focus on alarm resolution. This training began May 29, 
        2015 and was recently completed at the end of September 2015.
    
  <bullet> Increasing manual screening measures, including 
        reintroducing hand-held metal detectors to resolve alarms at 
        the checkpoint. This has been underway since mid-June and 
        reinforces our ability to detect the full range of threats.
    
  <bullet> Increasing the use of random explosives trace detection, 
        which also started in mid-June, enhancing detection 
        capabilities to a range of threat vectors.
    
  <bullet> Re-testing and re-evaluating screening equipment to measure 
        current performance standards. We are retesting the systems in 
        the airports tested by the Inspector General and assessing 
        performance of the field systems against those in the labs to 
        ensure optimal performance. This testing, which began in June 
        and is on-going, will help us to more fully understand and 
        strengthen equipment performance across the enterprise.
    
  <bullet> Assessing areas where screening technology equipment can be 
        enhanced. This includes new software, new operating concepts, 
        and technology upgrades in collaboration with our private-
        sector partners.
    
  <bullet> Evaluating the current practice of including non-vetted 
        populations in expedited screening. We continue to take steps 
        to ensure that we have a more fully-vetted population of 
        travelers exposed to screening in our expedited lanes. For 
        example, as of September 12, the practice of Managed Inclusion-
        2 is no longer used in daily operations.
    
  <bullet> Revising TSA's standard operating procedures to include 
        using TSA supervisors to help resolve situations at security 
        checkpoints. On June 26, 2015, TSA began field testing new 
        standard operating procedures at six airports. Lessons learned 
        will be incorporated and deployed Nation-wide. This procedure 
        is intended to ensure appropriate resolution techniques are 
        employed in every situation.
    
  <bullet> Continuing covert testing to assess the effectiveness of 
        these actions. For each test, there must be a same-day debrief 
        with the workforce of outcomes and performance along with 
        immediate remediation actions. Expansion of our testing also 
        enhances officer vigilance.
    
  <bullet> Finally, we have responded vigorously by establishing a team 
        of TSA and other DHS officials to monitor implementation of 
        these measures and report to the Secretary and me every 2 
        weeks. These updates have been on-going since June.
                         root cause assessment
    DHS and TSA are also committed to resolving the root causes of 
these test failures. A diverse team of DHS leaders, subject-matter 
experts, as well as officers and leaders from the front-line workforce 
are examining the underlying problems resulting in our performance 
failures and will make recommendations on system-wide solutions for 
implementations across the agency.
    The team's initial conclusion is that the screening effectiveness 
challenges noted by the Inspector General were not merely a performance 
problem to be solved solely by retraining our officers. Officer 
performance is but one among many of the challenges. TSA front-line 
officers have repeatedly demonstrated during their annual proficiency 
evaluations that they have the knowledge and the skill to perform the 
screening mission well. Nor was this principally a failure of the AIT 
technology. These systems have greatly enhanced TSA's ability to detect 
and disrupt new and evolving threats to aviation. AIT technology 
continues to perform to specification standards when maintained and 
employed properly, and we continue to improve its detection 
capabilities.
    The challenge can be succinctly described as a set of multi-
dimensional factors that have influenced the conduct of screening 
operations, creating a disproportionate focus on screening operations 
efficiency rather than security effectiveness. These challenges range 
across six dimensions: Leadership, technology, workforce performance, 
environmental influences, operating procedures, and system design.
    Pressures driven by increasing passenger volume, an increase in 
checkpoint screening of baggage due to fees charged for checked bags as 
well as inconsistent or limited enforcement of size requirements for 
hand-carried bags and the one bag plus one personal item (1+1) standard 
\1\ create a stressed screening environment at airport checkpoints. The 
challenges also include the range of complex rocedures that we ask our 
officers to employ, resulting in cognitive overload and personnel not 
properly employing the technology or a specific procedure. The 
limitations of the technology, the systems detection standards, TSA 
officers' lack of training on equipment limitations, and procedures 
that failed to resolve the alarms appropriately all undermined our 
ability to effectively screen, as noted by the Inspector General's 
report.
---------------------------------------------------------------------------
    \1\ The Aircraft Operator Standard Security Program, Dated October 
21, 2013, requires, with some exceptions for crewmembers, medical 
assistance items, musical instruments, duty-free items, and 
photographic equipment, that the accessible property for individuals 
accessing the sterile area be limited to one bag plus one personal item 
per passenger (e.g., purse, briefcase, or laptop computer).
---------------------------------------------------------------------------
    A critical component of the problem was confusing messages on the 
values of the institution, as expressed in the metrics used to assess 
effectiveness and leadership performance. As noted, a prior focus on 
measures that emphasized reduced wait times and organizational 
efficiency powerfully influenced screening performance as well as 
organizational culture. As a result, across TSA, leaders' and officers' 
organizational behavior emphasized efficiency outcomes and a pressure 
to clear passengers quickly, at the risk of not diligently resolving 
alarms. The combined effect of these many variables produced the 
performance reported by the Office of the Inspector General.
                         implementing solutions
    Solutions to the challenges facing TSA will require a renewed focus 
on the agency's security mission, a commitment to right-sizing and re-
sourcing TSA to effectively secure the aviation enterprise, and an 
industry commitment to incentivizing vetting of passengers as well as 
creating conditions that can decrease the volume and contents of bags 
presented for screening in airports.
    For TSA, we must renew our focus on the fundamentals of security, 
thereby asking our officers and leaders to strike a new balance between 
security effectiveness and line efficiency, to field and diligently 
perform appropriate resolution procedures and to close technology and 
performance gaps. We need our managers and supervisors to support our 
officers when they perform their difficult daily mission. As we move 
forward, we are guided by a principled, strategic approach, with 
specific projects already underway to advance our goal of ensuring we 
deliver on our mission to deter, detect, and disrupt threats to 
aviation.
    This principled approach extends beyond the immediate findings 
identified in the OIG's covert test of checkpoint operations. This 
approach also informs our strategy and ability as an agency to 
systematically evolve operations, workforce development, and capability 
investment, now and in the future. We will systematically review the 
prior findings of OIG and GAO reports as well as other sources of 
analysis that can inform security effectiveness.
Redefine Value Proposition
    First, TSA is in the process of ensuring our focus on security 
effectiveness is well-defined and applied across the entire workforce 
and mission space. Our ``Mission Essentials--Threat Mitigation'' 
course, being provided to every officer by the end of September, is our 
initial step. We will follow this initial effort with a range of 
initiatives to convey these priorities to leaders and officers using 
additional tools, such as a statement of the Administrator's Intent, 
the National Training Plan, and in our workforce messaging. Redefining 
our values as an agency by focusing on threat mitigation and improving 
TSO awareness and knowledge of the threat will provide a new and acute 
mission focus. Resolving every alarm, with discipline, competence, and 
professionalism are the values we are emphasizing to the workforce. 
From my initial field visits, I can report that our officers are 
hearing, understanding, and applying this new approach.
Communicate New Standards and Expectations
    To communicate these new standards, TSA's Office of Intelligence 
and Analysis is pursuing an information-sharing project to expand and 
ensure standardized information and intelligence sharing to front-line 
officers. Expanding the reach of the threat information provided to the 
field, enhancing our officers' awareness and understanding of the 
threat and the critical role they play in interdicting these threats 
creates ownership and a greater commitment to ensuring security 
procedures are followed.
Align Measures of Effectiveness to Standards and Expectations
    TSA's Office of Security Operations is examining and revising the 
current Management Objectives Report to rebalance the field leaders' 
scorecard with security effectiveness measures in addition to some 
preserved efficiency data. We are operating on the premise that what we 
measure are the organizational objectives to which our field leaders 
will pay close attention. We expect the first iteration of our new 
measures to be in the field by early October 2015.
Design System to Achieve Desired Outcome
    The aviation security system must interdict the full range of 
threats on the Prohibited Items List and evolving threats that require 
our immediate action. Our concept of operations review project, run by 
the Operations Performance and Mission Analysis Divisions, is further 
identifying system-wide gaps and vulnerabilities and how to ensure the 
traveling public is exposed to our mission-essential detection 
capabilities when transiting the screening checkpoint. The results of 
this analysis may lead to a range of recommended improvements, from 
clarification of pat-down procedures to fielding decisions for new 
technologies.
Eliminate Gaps and Vulnerabilities in Achieving Desired End-State
    Our work in analyzing the root causes has identified a range of 
vulnerabilities in TSA; however, there is no single office or 
accountable official charged with systemically tracking our 
vulnerability mitigation efforts. Centralizing these activities under a 
single official should drive systemic research, development, and 
fielding of new capabilities. Our TSA Office of the Chief Risk Officer 
is managing this project.
Evaluate Performance by Using the New Values, Standards, and 
        Expectations
    To motivate behavior, supervisors must clearly communicate the 
performance objectives they expect from their subordinate officers and 
leaders. Our Chief of Human Capital is working an initiative we are 
calling the ``Performance Evaluation Project,'' which is designed to 
ensure the appropriate focus on desired mission outcomes is imbedded 
within Annual Performance Plans. These new standards will be used for 
the performance period that started on October 1, 2015.
Incentivize Performance to Enact Values, Standard, and Expectations
    Several of our field leaders and officers have also recommended a 
Model Transportation Security Officer Project to determine model 
performance criteria. The project is intended to incentivize 
performance and emphasize the values and standards front-line employees 
are expected to uphold across the enterprise. I am a strong proponent 
of incentivizing performance, as this can be a powerful instrument to 
drive employee behaviors. Through these efforts, we intend to convey 
our values, measure them, and evaluate performance against these new 
expectations, uniting the TSA workforce behind critical agency reforms 
that will deliver organizational alignment and strengthen our security 
posture.
    Finally, we will continue to partner with the trade and travel 
industry, the airlines, and airport operators to identify solutions 
that can fundamentally alter the reality on the ground for our 
screening workforce.
    A key element of our solution set will be reassessing the screening 
workforce staffing baseline. Budgeted staffing levels for fiscal year 
2016, planned more than a year in advance of the covert testing 
failures, presumed a significant increase in the vetted traveling 
population which, combined with Managed Inclusion, allowed for a 
smaller workforce. We are reassessing screener workforce staffing needs 
and planning additional adjustments to support training and operational 
enhancements, all to ensure future staffing reductions remain rational 
choices that balance effectiveness with efficiency. Additionally, we 
look forward to working with the Congress to identify means of adding 
additional field intelligence officers to ensure every field operation 
is supported with a dedicated intelligence officer to facilitate 
information sharing, and to expand our efforts at the TSA Academy to 
train the workforce. Finally, we expect to invest in Advanced Imaging 
Technology detection upgrades based on the OIG findings.
                      mission essentials training
    Given the importance of training to our mission, I would like to 
elaborate on TSA's approach to training following the OIG covert 
testing results. It is critical that we train out these failures so we 
do not repeat the mistakes, including those which could have 
catastrophic consequences. As of October 1, we have trained the 
specifics of the failures to virtually every front-line member and 
leader of TSA.
    This training, referred to as ``Mission Essentials--Threat 
Mitigation,'' builds our workforce understanding of the link among 
intelligence, technology, and the procedures they perform. The training 
advances our new value proposition by: (1) Providing a detailed 
intelligence briefing on the current threat; (2) discussing passenger 
tactics and techniques that may be used to dissuade the TSOs from 
thoroughly performing their screening duties and what counter-measures 
they can employ; (3) reviewing recent procedural changes for screening 
individuals who present themselves as having a disability; (4) 
practicing pat-down procedures with the goal of finding components of 
improvised explosive devices; and (5) exploring the capabilities and 
limitations of the checkpoint equipment and how the TSO can by 
following proper procedures. I have been encouraged to see our TSOs 
embracing the principles of Mission Essentials training.
    Through this training, our employees are being taught how to 
respond to social engineering--techniques used by passengers seeking to 
manipulate our screening workforce and avoid regular processes. As I 
meet with these employees in my travels to airports throughout the 
country, I have heard repeatedly that they wished they had this 
valuable information. As such, I have charged TSA's senior leaders to 
plan to send all new-hire TSOs to the TSA Academy at the Federal Law 
Enforcement Training Center in Glynco, GA, for TSO-basic training 
beginning in January 2016. Most of our major counterterrorism partners 
in security and law enforcement send their employees through similar-
type academies to ensure a laser-focus on mission, and we should as 
well. We recognize this initiative may require additional resources, 
and look forward to working with the committee accordingly.
                          future of screening
    As we envision the future of screening, even in the context of the 
current challenges, I remain a strong proponent of a risk-based 
approach to security. The vast majority of people, goods, and services 
moving through our transportation systems are legitimate and pose 
minimal risk. To support our risk-based approach, it is critical to 
continue growing the population of fully-vetted travelers, such as 
those participating in TSA PreCheck<SUP>TM</SUP> or in other DHS 
trusted traveler programs. In parallel, I am also reviewing expedited 
screening concepts with the intent of moving away from unvetted 
travelers. This multi-pronged, risk-based approach will result in 
separating known and unknown travelers, with known travelers receiving 
expedited screening and other travelers, some high-threat, receiving 
more extensive screening.
    I envision a future where some known travelers will be as vetted 
and trusted as flight crews. Technology on the horizon may support 
passengers becoming their own ``boarding passes'' by using biometrics, 
such as fingerprint scans, to verify identities linked to Secure 
Flight. The Credential Authentication Technology (CAT) is the first 
step in this process and will provide TSOs with real-time 
authentication of a passenger's identity credentials and travel 
itinerary.
    A second objective is to screen at the ``speed of life'' with an 
integrated screening system that combines metal detection, non-metallic 
anomaly detection, shoe X-ray, and explosive vapor detection. 
Prototypes of these machines exist, which hold great promise for the 
traveling public.
    Purposeful checkpoint and airport designs that facilitate screening 
advances are also a future approach. At Los Angeles International 
Airport (LAX) Tom Bradley International Terminal, recent innovative 
renovations have been completed so that screening operations are 
seamlessly integrated into the movement and flow of the traveling 
public. This effort will continue, with 6 out of 8 terminals at LAX 
scheduled for design and renovation. Other locations, such as Dulles 
International Airport (IAD), have dedicated checkpoints that separate 
expedited screening from other operations, allowing TSOs to follow the 
appropriate concepts of operations with greater focus and clarity.
    While some airports may not be able to take the same approach, the 
future of screening is based on fulfilling the promise of risk-based 
security. By increasing the number of fully-vetted passengers and 
enhancing the effectiveness and efficiency of physical screening, I am 
committed to refining and advancing our risk-based security strategy. I 
look forward to working with this committee and the Congress to chart a 
way forward in this regard.
                               conclusion
    Chairman Katko, Ranking Member Rice, we have an incredible 
challenge ahead of us. Still, I know TSA is up to the task, and will 
adjust its focus from one based on speed and efficiency to one based on 
security effectiveness. We are on the front lines of a critical 
counterterrorism fight and our workforce is willing and able to do the 
job. I thank you for the opportunity to appear before you today and 
sincerely appreciate your time and attention. I look forward to your 
questions.

    Mr. Katko. Thank you, Administrator Neffenger.
    I called you Admiral or Administrator, either one. It is 
interchangeable, I guess. But thank you again for your 
testimony. I appreciate the fact that you are responding 
rapidly, and recognizing, and embracing the problems, and 
trying to find solutions. I am encouraged by that. We all are. 
We look forward during the course of the questioning here today 
to talk about moving forward, what is the plan, and we hope you 
weave that into your testimony as we go through it today.
    I also thank you for rearranging your schedule to be here 
with us today. I now recognize myself for 5 minutes to ask 
questions.
    I will start by observing the nature and tenor of this 
hearing and how it is different from the other ones that we 
have had. The other hearings we have had so far, and we have 
had 7 subcommittee hearings. This is the seventh one, I 
believe, which is more than any in all of Homeland Security, 
and perhaps more than most in Congress. The reason is because 
there is a lot to do. There is a lot of issues to examine.
    At the forefront of examining of those issues has been the 
Inspector General, and we appreciate that. Like we said 
earlier, by Miss Rice, I believe, or someone, more than 100 
such reports have been done by the Inspector General since the 
inception of TSA. Those reports are revealing and also at times 
troubling. Since we got into the hearings this year, we did one 
on the Atlanta gun trafficking case which exposed 170 guns 
being trafficked by employees through supposedly secure access 
points. It exposed a major weakness in the airline aviation 
system and that is employee access controls, which are sorely 
lacking. That was exacerbated by a number of cases recently in 
Dallas/Fort Worth, and LAX, and Oakland, and elsewhere where 
major drug trafficking rings had been disrupted.
    One of those rings, at the preliminary hearing, one of the 
employees was bragging about the fact that he could bring 
anything through there, including a bomb, which is incredibly 
troubling. Instead of having an oh-my-God-moment by the 
airports, we hear a lot of pushback about costs, and that is 
something we are going to have to examine going forward. We 
have had a lot of hearings about screenings and the problems 
with screenings, a 97 percent fail rate in recent tests. That 
is unbelievably troubling.
    We have had hearings about PreCheck and Managed Inclusion 
and how people are getting pulled out of regular lines into the 
PreCheck line without any additional background checks, which 
defeats the purpose of PreCheck.
    We have heard about the Federal Air Marshal Service and we 
had a good productive hearing with them and then we found out 
that after that, Federal Air Marshals are filling sessions with 
prostitutes in hotels paid for with Government credit cards, 
and Lord knows what else is going on. That is troubling too.
    We have also heard some things about private screenings 
from the Inspector General. This all points up that, I think, 
and underscores the belief by the Inspector General himself 
that sometimes--and it is not on your watch, Mr. Neffenger, but 
sometimes, many times, TSA has not responded. That leads me to 
the conclusion that TSA, while a young agency, has become a 
very bureaucratized agency already, too slow to respond and not 
nimble enough to respond.
    So the genesis of all that was why I had this hearing today 
to allow us to discuss at a more general level what are some of 
its systemic problems that we see at TSA, and we are doing this 
to benefit Mr. Neffenger's presence so that he can hopefully 
address them going forward.
    So with that teeing the ball up, Mr. Roth, I would like to 
hear from you as to what you think some of the, you know, 
global problems are at TSA, and I encourage you to be as frank 
as possible.
    Mr. Roth. Thank you, Mr. Chairman, and let me preface my 
remarks by, this is a look back over a number of different 
audit reports that span the course of years. One of the 
conclusions or themes that I can draw from this is that there 
is a mismatch between the risk and meeting the risk. That sort 
of working theory that we have is either TSA doesn't understand 
the nature of the risk, or they do understand the nature of the 
risk, and then worse from that is that they don't address the 
risk in any appropriate way.
    Again, I am going to be speaking in the past tense about 
this because I do think, or at least I am hopeful, consistent 
with my auditor's vow of critical thinking and skepticism, but 
I am hopeful that we are in a new era. But I will talk about 
three episodes that to me sort-of illustrate one of the big 
issues we have in sort-of either not understanding the risk, or 
simply dismissing the risk.
    The first is, of course, our covert testing. The recent 
round of covert testing was not a surprise to us and it was not 
a surprise to TSA. We had been doing covert testing over the 
years with consistently disappointing results. You know, as we 
like to say, the best test of a football team is how they do on 
Sunday. To us, a covert testing is the Sunday game. Real-world 
conditions, figure out exactly how well the system works, and 
it did not work very well.
    What we found after the covert testing was even a little 
bit more upsetting, which was, TSA does their own covert 
testing and those results were very similar to our results. So 
none of this came as a surprise to TSA. One of the things that 
we discovered after this round of testing and the, I would say, 
the very vigorous response that the Department gave with regard 
to our briefing on the covert testing, was that no one in DHS 
had known sort-of this issue; that the issue had remained 
within TSA. TSA had not sort-of elevated the issue. It came as 
a surprise to the Secretary, to the Deputy Secretary, to the 
leadership within the Department.
    When you look at TSA's fiscal 2016 budget, 2016 budget what 
it shows is that they are actually going to reduce the number 
of screeners. Their proposal was to reduce the number of 
screeners by about 1,700 people. Now, this is a budget that was 
developed over time and certainly not under this current 
administrator's watch, and I understand that it is going to be 
reversed, but I think it shows sort of a cultural attitude that 
they knew that they had a risk.
    Their response to that risk was reducing the number of 
screeners. Their justification for it, and I am just reading 
from their budget document that was submitted to the Hill, was 
that TSA employs a multi-layered, risk-based, intelligence-
driven approach to its security and counterterrorism mission, 
and as a result of these, they are focusing efforts on 
efficiency and can save money as a result of this. Which is in 
direct contradiction to the evidence that they had at the time 
as to the efficiency of checkpoint operations.
    So they either dismissed the risk, or understood the risk, 
but, yet, didn't meet the risk. So that would be the first 
episode, and if I could have, there is a couple of others, 
which I am happy to continue, or----
    Mr. Katko. Yeah, for a few moments, please.
    Mr. Roth. Okay. The second one is our audit on PreCheck. 
You know, we had real concerns about Managed Inclusion and 
PreCheck. As you know, you had a hearing on this. I had a 
conversation with the previous administrator about our audit 
report where we had deep concerns that people that didn't have 
an individualized assessment of risk were getting expedited 
screening. His answer was, well, look, it is my job to accept 
the risk, and I am accepting this risk, which is fine, except 
my family flies. So, you know, I am not sure that is an 
adequate answer. That all of these people went through Secure 
Flight.
    So the idea is, of course, that they have been vetted 
against certain intelligence databases to determine whether 
they are a risk. I mean the problem with that is any student of 
modern terrorism history understands that 17 of the 19 9/11 
hijackers were unknown to the intelligence community, and they 
wouldn't be on any sort of special list.
    Richard Reid, the shoe bomber was not on any special list. 
The Christmas day bomber in 2009 was not on any list. The most 
significant terrorist attack we had in recent memory, the 
Marathon bomber, Tamerlan Tsarnaev, wasn't on any list. In 
fact, he was looked at by the FBI and adjudged not to be a 
threat and then not on any sort of active list.
    So this idea that, oh, well, it is an intelligence-based, 
and that is the silver bullet, and that is what is going to 
help us here, is just a wrong-headed assessment of risk. As I 
said, again, this was not on this administrator's watch, but it 
was very deeply upsetting to me during the course of our audits 
to see this kind of a reaction.
    Mr. Katko. Thank you, Mr. Roth. I will have some questions 
for you, Admiral Neffenger, on the second go-around if we are 
able to get to that. If not, I will ask you to submit the 
questions in writing depending on our schedule here.
    The Chair now recognizes the Ranking Minority Member of the 
subcommittee, the gentlelady from New York, Miss Rice, for any 
questions she may have.
    Miss Rice. Thank you, Mr. Chairman. Inspector General Roth, 
what I would like to ask you, you mentioned in your statement 
the No. 1 thing is that TSA can do to change the culture, which 
is what you cite as significantly problematic. So what are your 
thoughts on how you change the culture?
    Mr. Roth. Okay, it is a difficult problem, because it is a 
problem that has grown up over time. One of the ways that you 
change the culture is, I think, what the administrator is 
currently doing, which is an honest look at what it is that is 
going on and sort of honestly confront your problems and put a 
plan of action in place.
    Historically, it has not been that. It has been both for us 
and GAO sort-of a reaction, and a very disturbing reaction, for 
example, in our covert testing I think for 2012, we had our 
results and TSA pushed back considerably on our methodology, 
and on a number of other things. But lo and behold, they had 
their own internal testing that was almost the same. So what 
kind of an agency is sort of pushing back in public, and yet, 
understands that the audit is correct?
    As I said, I think this is changing, and there is an honest 
assessment of what is going on. My understanding is that the 
administrator is going to put forth a realistic strategic plan 
that isn't, you know, everything is wonderful and we are doing 
fine, and pay no attention to the man behind the curtain, but 
rather this is a problem. The risks of catastrophic terrorism 
are real, and we absolutely need to get it right.
    So it is a long process. There isn't a single magic bullet, 
but certainly, good leadership helps and that is what we are 
hopeful for.
    Miss Rice. So being 1 of 10 kids, I have to be optimistic, 
right, and I am choosing to be optimistic about the ability to 
change the culture at TSA because it has only been around for a 
short period of time, right? I am on the Veterans Affairs' 
Committee and I can tell you that that agency does the same 
exact thing. Every time there is an IG report that says here is 
a problem, here is a problem, they push back and say no, no, 
no, there is no problem. Nothing needs to be changed. The 
stakes are equally high for both our veterans, right, and 
National security, domestic, and international that TSA is 
dealing with.
    So I am glad to hear you, Mr. Roth, speak so bluntly 
because that is what we need. That is what your job is, but I 
am also happy to hear that you are optimistic about Admiral 
Neffenger, because I am very optimistic about the new 
administrator for a whole host of reasons.
    So one issue that I do want to address because you 
mentioned this, because I do believe, Mr. Roth, that in order 
to do an adequate assessment of your risk, right, intelligence 
has to be part of that. One of the things that I was so 
distressed to hear about, is how the TSA is responsible for 
doing the checks on airport employees, and yet, they are given 
incredibly poor information to do these background checks, 
which affects the ability to really adequately assess the risk 
of this employee, which as the Chairman pointed out, when you 
have gunrunners and drug runners, some of whom are employed by 
the agency, that is problematic.
    So my question is to you, Admiral Neffenger, regarding 
that--it seemed to me that that was a fix that didn't have to 
be a legislative fix. You, as the administrator, could say, 
from now on, if you want a background check to be done, which 
you have to have done, these are the things--these are the 
pieces of information that we need to get, or you don't get the 
background check and you can't hire the person.
    So just that one area, if you could just address that one 
issue?
    Admiral Neffenger. Yes, thank you. With respect to that, so 
I have got some good news to report. We actually get access to 
a whole host of information in databases now that allow us to 
do--and actually, we always had access to terrorist screening 
database, and databases with known or suspected terrorist 
information in it.
    Some of which you are referring to are some categories 
within what is called the terrorist information datamart 
environment. It is just a big database where this was 
information that may or may not be sufficient to directly tie 
somebody to a known or suspected terrorist, or identify them as 
such, or there might be partial information. Those are the 
categories that we had, you know, one-by-one, or case-by-case 
access to, but not automated access. So we have asked for that 
automated access and we are working through the interagency to 
achieve that.
    We have also dramatically improved our oversight of the 
airport vetting environment. So as you know, we still vet the 
folks who are applying for secure access badges. But to the 
Inspector General's point, we had not been overseeing the 
collection of information and the maintenance of the data in 
doing regular audits of that. We are doing that now directly as 
a result of the Inspector General's findings.
    So I think that we are moving forward in a good way on 
getting information. I share your concern that we have access 
to as much information as we need to have access to in order to 
fully vet people who we put into trusted environments, given 
what we have already known about what has happened in some of 
the airport environments across the country. I think that we 
made good progress.
    I have met with my counterparts in the intelligence 
community, and I have been sitting--I met with the National 
security staff and the senior directors for trans-border and 
others to make clear my priorities, and so far I have been 
getting good results from that.
    Miss Rice. Great, thank you both very much.
    Mr. Katko. Thank you, Miss Rice. The Chair now recognizes 
the Ranking Minority Member of the Homeland Security Committee, 
the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. 
Administrator Neffenger, one of the real challenges I alluded 
to in my opening statement went toward the fact that we buy 
technology in the form of equipment for vulnerabilities that 
they can't detect. How are you going to close that gap between 
known vulnerabilities and acquiring equipment and technologies 
that won't detect it?
    Admiral Neffenger. Well, you know, Mr. Thompson, you really 
hit on a key concern, and that is how do you get beyond today's 
security systems and look towards the future and evolve fast 
enough to meet what we know to be an evolving threat 
environment? I think there are a couple of things we need to 
do.
    First of all, I would like to see more robust competition 
in the marketplace. Right now we are tied to a couple of key 
vendors. They have done good work and they produced some good 
equipment for us, but I would like to see even more 
competition. I would like to incentivize more. I think there is 
a lot of creativity in the private sector and I think there is 
a lot of innovation in the private sector.
    I have got some thoughts on ways in which we can 
incentivize that competition to include small business 
competition because I think that some of the small businesses 
out there are doing some of the most innovative work that we 
have.
    The second piece is to have a clear understanding of what 
the threat is so that when we develop the requirements that we 
need for the equipment that we are looking for, that those 
requirements are expansive and robust; that we don't just look 
to buy the next thing on the shelf that looks like it might do 
the job, but that you have got to really start--I will back up 
a moment because it speaks to some of the points that each of 
you have made with respect to focus on mission.
    You really have to start with the mission. It is not just 
enough to say my mission is secure. You have to say, well, what 
does that mean? What are the components of my mission? So you 
have to do a true analysis of the mission. I say this 
sincerely, I start every day by thinking about the mission and 
I work backwards from there and I think, what does it take to 
accomplish this mission? What are the requirements we need to--
if you are sitting at a checkpoint, what does that checkpoint 
have to actually do? What is the nature of the threats that 
might present themselves at the checkpoint? How might you 
determine those threats? How might they be presented? In what 
manner can they be presented? All of the different variations 
of that. That is a very complex process to do that, but you 
have to do it, and you have got to dissect that mission down to 
the--down to the details.
    Then you can begin to put out requirements that I think we 
can--we will see much more robust response to that. In the mean 
time, I want to make sure that the equipment that we currently 
operate is operating to its peak. So we are working to get the 
most out of the current equipment as we look to move the next 
technology in.
    Mr. Thompson. Well, and not for a response, if we keep 
buying current equipment that can't identify those known 
vulnerabilities, we are not where we need to be, and I think 
this robust competition is healthy because when you only have 
three major players in the area, you know, that is a lot. So I 
look forward to your leadership to incentivize other 
competition. I think that is important. We put it in the 
legislation, and I hope that authority gets us where we need to 
be.
    A couple of other things. You talked about the checkpoints. 
You know, TSOs are special to a lot of the traveling public. 
Most of the time, that is all people see are those men and 
women at the checkpoints. I would like to make sure that those 
men and women are being encouraged to be the best that they can 
be, and not penalized. Now, I heard something yesterday and I 
just need a yes or no answer. Are the medical guidelines for 
TSOs and all other employees for TSA the same?
    Admiral Neffenger. You know, I don't know the answer to 
that question exactly, because I am looking at the very medical 
guidelines right now. I know that they have over the past year, 
before I became confirmed, I know that we had been working on 
updating the standards for medical guidelines. Here is what I 
believe to be the case. That I think that there are different 
categories of medical guidelines depending upon the type of 
work that you have to do in the organization.
    For example, I believe that there are certain physical 
standards you have to be able to meet in order to perform the 
duties as a baggage check person that may or may not be the 
same standards that you have to hold if you are an employee at 
TSA headquarters.
    Mr. Thompson. I want you to check that out.
    Admiral Neffenger. But I will verify it for you.
    Mr. Thompson. Because I am told that, like, people who are 
TSOs who might have asthma get discharged by having asthma, or 
high blood pressure, diabetes, whatever; but that people in 
management somehow don't. Actually, I have the information, but 
that is a problem from my vantage point because if you have a 
different--just look at that.
    Admiral Neffenger. I will do that.
    Mr. Thompson. In health. I have got some other questions 
that I will submit, Mr. Chairman, for the record to get it. But 
I would also like unanimous consent to provide for the record 
that there have been 165 TSOs who have been terminated for 
disqualifying medical conditions--and cancer. I mean, you know, 
how can you terminate somebody because they have cancer? I 
mean, that is, you know, what I am saying? So I don't want us 
to be a scrooge. I want us to treat people humanely, and I 
would like to include that into the record.
    Mr. Katko. Without objection, so ordered.
    [The information follows:]
   List Submitted For the Record by Ranking Member Bennie G. Thompson
   tso's removed/terminated for disqualifying medical conditions for 
   calendar year 2014--the number of tso removals/terminations is 165
Breakdown By Gender:
Female--85
Male--80
Total--165
Breakdown by Disqualifying Medical Guideline
  <bullet> Anxiety Related Dysfunction--15
  <bullet> Arrhythmias--1
  <bullet> Arthritis--2
  <bullet> Asthma--3
  <bullet> Behavior Dyscontrol--1
  <bullet> Bipolar Disorder--2
  <bullet> Body Mass Index--1
  <bullet> Cancer--3
  <bullet> Cardiomyopathy, Myocarditis, Constrictive Pericarditis--2
  <bullet> Cataracts, Corneal Disorder, Eye Disorders--1
  <bullet> Cervical, Thoracic and Lumbosacral Disc Disease Syndrome--23
  <bullet> Chronic Bronchitis, Cystic Lung Disease & COPD--1
  <bullet> Chronic Pain--4
  <bullet> Coronary Artery Disease--1
  <bullet> Delusional/Paranoid Dysfunction--1
  <bullet> Depression Related Disorder--13
  <bullet> Diabetes Mellitus--3
  <bullet> Equilibrium Disorder--3
  <bullet> Gout--1
  <bullet> Hernia--1
  <bullet> Hip, Knee, Ankle and Foot Related Dysfunction--4
  <bullet> Hypertension--1
  <bullet> Inability to Lift and Carry Items Weighing up to 70 Pounds--
        19
  <bullet> Inability to Walk, Stand for Periods Greater Than 10 
        Minutes--1
  <bullet> Inflammatory Bowel Disease--1
  <bullet> Irritable Bowel Syndrome--5
  <bullet> Lumbar Spine Disorder--5
  <bullet> Lumbosacral Surgery--1
  <bullet> Migraines and Other Episodic Headaches--18
  <bullet> Mobility and Dexterity--3
  <bullet> Motor Neuron Disease--1
  <bullet> Osteoarthritis--4
  <bullet> Pain & Neuropathies--1
  <bullet> Parkinson's Disease--1
  <bullet> Peak Experiratory Flor (PEE)--1
  <bullet> PTSD--2
  <bullet> Renal Function--1
  <bullet> Seizure Disorder--6
  <bullet> Sleep Disorder--2
  <bullet> Spinal Abnormalities--1
  <bullet> Transient Neurological Events--1
  <bullet> Traumatic Brain Injury--1
  <bullet> Vertigo--2
  <bullet> Visual Acuity Far And Near--1

Total=165
   tsos removed/terminated for disqualifying medical conditions for 
   calendar year 2013--the number of tso removals/terminations is 185
Breakdown By Gender
Female--106
Male--79
Total--185
Breakdown by Disqualifying Medical Guideline
    (1) Migraines and Other Episodic Headaches--27
    (2) Anxiety--14
    (3) Depression and Related Disorder--10
    (4) Cervical Lumbar--1
    (5) Diabetes--9
    (6) Inflammatory Bowel Disease--3
    (7) Anemia--1
    (8) Anticoagulation Therapy--1
    (9) Psychotic Functioning--1
    (10) Cervical Thoracic--12
    (11) Gout--3
    (12) Urticaria--1
    (13) Joint Condition--3
    (14) Heart Disease--2
    (15) Cancer--2
    (16) Ventricular Arrhythmia--2
    (17) Inability to Lift and Carry Items Weighing up to 70 Pounds--44
    (18) Inability to Squat and Bend--6
    (19) Inability to Walk, Stand for Periods Greater Than 10 Minutes--
        8
    (20) Mobility and Dexterity--9
    (21) Vertigo--1
    (22) Inguinal, Umbilical or Ventral Hernia--1
    (23) Endocrine Disorder--1
    (24) Chronic Pain--4
    (25) Myotonic Dystrophy--1
    (26) Renal Dysfunction--1
    (27) Peripheral Neuropathy--1
    (28) Spinal Abnormalities--2
    (29) Sleep Disorder--2
    (30) Meniere's Disease--1
    (31) Asthma--1
    (32) Seizures--2
    (33) Chronic Bronchitis--2
    (34) Diplopia and Visual Field Loss--1
    (35) Delusional/Paranoid Dysfunction--1
    (36) Behavioral Dyscontrol--2
    (37) Syncope--1
    (38) Thoracic Outlet Synedrome--1

Total--185

    Mr. Katko. Thank you, Mr. Thompson. The Chair now will 
recognize other Members of the committee for questions they may 
wish to ask the witnesses.
    In accordance with the committee rules and practice, I plan 
to recognize Members who were present at the start of the 
hearing by the seniority on the subcommittee. Those coming in 
later will be recognized in the order of arrival.
    The Chair now recognizes Mr. Keating from Massachusetts for 
5 minutes of questioning.
    Mr. Keating. Thank you, Mr. Chairman. It was only me, 
anyway.
    Mr. Katko. Well, you are very important to all of us.
    Mr. Keating. Thank you, sir. Thank you for being here Mr. 
Roth, Inspector General Roth, and thank you for your work. You 
are talking about a culture. Let me just do this again. You 
know, it is not just TSA administrator that we are talking 
about in terms of the culture. It is higher up, Secretary Ridge 
when he was a witness, I brought this up with him, and he 
agreed it was a major issue.
    Secretary Napolitano, when she was the Secretary several 
times said this is a priority. It is an issue. I brought it up 
with Secretary Johnson, and last summer I brought it up with 
you. You agreed that this was a top priority. That is the issue 
of perimeter security around the airports. I have been saying 
this for so long and the response has been to cut down the 
number of vulnerability studies and to tell this committee that 
things are more secure.
    In the mean time, teenagers, intoxicated people, are 
breaching perimeter security, go right up to the aircraft, 
which is, I hate to say this publicly, but which is an amazing 
target. They can put a bomb on there the same way that these 
teenagers had access and not even risk their own lives the way 
people would ordinarily have to do it if they are going to 
breach the gate.
    So I wanted to follow up, No. 1, with that question to see 
what steps have been taken since we last discussed this, and 
what you expect to implement.
    The second issue, part of the problem with perimeter is the 
jurisdictional issue. You have got some airports that are 
municipal airports, very small airports, but still networked 
into the big commercial flights. You have got authorities, all 
kinds of brands and shapes, all types of resources to deal with 
it. The continuing problem of what to do with the exit lanes, 
which TSA maintains is still a priority, it is still important.
    It is still an access point, but you want to shift that 
authority to these airports that aren't even doing the job with 
perimeter security.
    So the two questions I have are: What is the update on 
perimeter security in terms of implementing what you said was 
high priority? No. 2, how can we resolve the exit lane issue 
which I think if it is so important for TSA, it should remain 
their responsibility and make sure we have the kind of security 
we need there, because that is a vulnerability standpoint as 
far as I have seen? If you could, those two questions, 
Administrator Neffenger, and thank you again for making 
yourself so available.
    Admiral Neffenger. Yes, sir, thank you, Mr. Keating.
    Perimeter security, as you know, one of the things that was 
requested right in the aftermath of the Atlanta issue was a 
look by the Aviation Security Advisory Committee at 
vulnerabilities across the airport system. I think that 
provided a very good series of issues to address as well as 
some strong recommendations and we have been working to, first 
of all, to think about how to implement those, and then to take 
a good solid look at the system.
    So it actually is a significant priority of ours to ensure 
perimeter security. I share your same concerns with it. So what 
have we done? I have ordered a look at all of the airports 
across the country.
    I want to know from top to bottom, you know, what have we 
done with respect to perimeter security, including access 
control points, how those access control points are maintained, 
and then what do we do to actually ensure the safety and 
security of the perimeter itself? What is the nature of the 
perimeter, and how consistently is it enforced around? So that 
is a fairly large undertaking, and I haven't seen the results 
of that request yet.
    The other thing I am doing is putting more effort into that 
oversight piece. We have legislative authority to do that 
oversight whether you are dealing with a local airport 
authority, a local municipality, or a large aviation concern. 
All of it falls under the purview, and I think that there are--
you can set clear performance standards for how that is done.
    So the first is to assess what the current state really is 
as opposed to----
    Mr. Keating. I don't want to interrupt you, but my time is 
going away on me. Do you have a time frame in which that study 
could be taking place? I am a few weeks away from asking this 
question for 6 years now. Do you have a time frame?
    Admiral Neffenger. Well, I understand your frustration so 
we are doing that right now. Let me get you an actual time 
frame so that I--because I don't want to promise something I 
can't deliver on a certain time, but I can commit to you is 
that it is happening right now and I have asked the same 
question.
    I am very concerned about the same issue, I want you to 
understand. Because that system is important. Let's say you get 
the checkpoint 100 percent right. There are more 
vulnerabilities in the aviation system than the checkpoint.
    Mr. Keating. The exit lane, briefly if you could.
    Admiral Neffenger. I will get back to you on the exit lane 
question as well, sir.
    Mr. Keating. Thank you. I yield back.
    Mr. Katko. Thank you, Mr. Keating. We are getting ready for 
votes, but I think what I would like to do, if any of the other 
Members have questions, just ask questions and have you respond 
to the rest in writing. I have a few that I would like to have 
responded to in writing before we wrap up here.
    With respect to Mr. Roth, simply, Mr. Roth, if there are 
other kind of 30,000-foot observations you would like to make 
about TSA that you weren't able to cover today in the short 
period that we were here, I encourage you to submit them in 
writing to the committee and I encourage you to be as blunt and 
open as possible. I think it is important to expose that, and 
make sure to copy the administrator on it as well.
    With respect to Administrator Neffenger, there are a couple 
of things I would like to have you talk about. Ranking Member 
Thompson hit it right on the head with the technology issues. 
One of the things he said that is very important is he said he 
has only seen three major players, if you will, within the 
technology providing for the administration, and that sometimes 
it seems like there is a sense of comfort with dealing with 
just those three.
    I think competition is a good thing. I have been to many 
technology presentations recently and the updated technology 
out there is stunningly advanced. It seems to me that I would 
like to hear from you, actually, as to what you are doing to 
vet that technology, and how you are encouraging these 
newcomers on the scene to give them a fair shake. Not only from 
a competition aspect, but taking a real good hard look at 
everything from the prescreening aspects with the biometric 
data, to the actual physical screening procedures and machines 
because we know there are problems with them now, and going 
forward, how are you going to address that?
    The other component I want to ask you about is the age of 
the screening equipment itself. Because from my understanding, 
much of this equipment is at or near a 10-year lifespan. That I 
would like to know what the plans are going forward to replace 
it because many of these are at the end of their lifespan and--
projected lifespan at least, and it doesn't seem like there is 
a plan going forward on the horizon.
    So I would like to see what the blueprint is going forward 
to deal with this new technology. I think Mr. Thompson is 100 
percent right that technology is critically important and 
hearing from all parties, not just the ones that TSA is 
comfortable with. That is very important.
    Let me make sure there is nothing else here. Oh, yeah, last 
thing is, with respect to the access controls. I would like to 
hear what has been done since we have to tighten up access 
controls, and I will note to just warn you that with respect to 
the Viper team that was celebrated as a risk-based security for 
the access controls, but it was completely exploited by the 
individuals in the Dallas/Fort Worth case.
    As a matter of fact, employees went into areas and if the 
Viper team was there, they just simply called out to their 
comrades to bring the drugs and contrabands to another exit, 
another entry point. That is a major concern. So I don't want 
to hear too much about the Viper teams because it is not 
getting the job done. It's pretty obvious. They are a good 
idea, but they are easily circumvented. So I would like to hear 
what your ideas are about that going forward, and what has 
actually been done going forward.
    I really look forward to getting that bill passed that we 
just recently passed out of the House and getting it signed--
passed out of the Senate and signed by the President so that we 
can get to work on doing an in-depth study that is really 
needed with this.
    So with that, I will ask my colleagues if they have any 
further questions they want to have submitted for the record. 
Anything?
    All right, if there is anything further, we will submit 
them to you in writing within 10 days.
    I thank you very much. It was an abbreviated session, but 
we have had a few things going on today as you might imagine, 
and it is now time for some votes. So thank you very much.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Questions From Chairman John Katko for Peter Neffenger
    Question 1. The Transportation Security Administration (TSA) has 
long been plagued with accusations of mismanagement and waste. Since 
taking the helm at the agency, have you had the opportunity to assess 
the various programs and activities in TSA's area of responsibility and 
identify any areas that are in need of reform, restructuring, or 
elimination?
    Answer. On an annual basis, the Transportation Security 
Administration (TSA) examines all programs and activities to review 
current requirements and execution of resources along with program 
performance to ensure optimal use of limited resources. This process 
identifies realignments, restructurings, and/or elimination of programs 
or activities to propose in the annual Congressional budget submission.
    Over the past several fiscal years, TSA has identified efficiencies 
and savings in the budget. For example, in fiscal year 2014, TSA 
identified approximately $100 million in various enterprise-wide and 
administrative/professional support contract efficiencies; in fiscal 
year 2015 and 2016, TSA's budget submissions reflected over $200 
million in savings as a result of implementing risk-based security 
initiatives. Realignments have also been made through the formal budget 
process to better apportion resources to TSA's organization and 
management structure, while enhancing mission effectiveness. In the 
fiscal year 2015 budget, TSA permanently consolidated the Federal Air 
Marshal Service Appropriation into a single Program, Project, and 
Activity (PPA) within TSA's Aviation Security Appropriation and 
realigned the Intelligence PPA from Transportation Security Support 
Appropriation to the Intelligence and Vetting Appropriation.
    TSA recently established a new level of review in the budget 
process for the fiscal year 2018-2022 cycle which will include in-
depth, transparent, agency-wide program reviews and prioritization of 
requirements. In the current fiscal climate, TSA will ensure that the 
available resources are effectively and efficiently aligned and managed 
to minimize waste. Additionally, TSA will ensure that programs and 
activities support the TSA and Department of Homeland Security's (DHS) 
missions, while aligning resources to the TSA Administrator's and DHS 
Secretary's priorities.
    Programs and activities are also assessed when high-priority 
emergent needs arise outside of the development of an annual budget. 
For example, TSA initiated a programmatic review of security procedures 
addressing issues raised by the DHS Office of Inspector General (OIG) 
covert testing results issued in May 2015. The report revealed the need 
for improvements in the screening process, to be addressed in the near 
and long terms. Based on the review, resource realignments have been 
proposed to improve security performance and monitoring. TSA is 
committed to optimizing resources, and remaining a high-performing, 
risk-based intelligence-driven agency.
    Question 2. How do you plan to measure and evaluate TSA's success 
in achieving programmatic goals and outcomes?
    Answer. The Transportation Security Administration (TSA) will 
report strategic and management measures externally through the Future 
Years Homeland Security Program system. These select measures align to 
the Department of Homeland Security Mission 1.1 Goal: Prevent Terrorism 
and Enhance Security. TSA will also use other metrics to measure the 
effectiveness and efficiency of individual security programs, such as 
the use of scorecards to assess performance management in the Measures 
of Effectiveness (MOE) report. This report identifies security 
programs, procedures, and technology deemed strategically important by 
TSA leadership, and measures performance at the airport, regional, and 
National levels. The MOE replaces the previous Management Objectives 
Report and reflects the increased emphasis on security effectiveness 
and a decreased emphasis on throughput. The specific performance 
metrics used in the MOE reporting are organized into the following four 
broad categories:
  <bullet> Workforce Readiness.--Measures emphasize the continued 
        development of an adaptive and flexible counterterrorism 
        workforce that is highly-trained, competent, and ready to meet 
        the threat.
  <bullet> System Readiness.--Measures improve mission effectiveness by 
        measuring the implementation and continuation of risk-based, 
        intelligence-driven security initiatives aimed at deterring and 
        disrupting adversary activity.
  <bullet> Workforce Performance.--Measures reflect the ability of 
        TSA's human assets to detect threats to aviation security 
        presented through the screening checkpoint and checked baggage.
  <bullet> System Performance.--Measures reflect the operational and 
        management conditions that optimize TSA's ability to detect 
        threats to aviation security.
    Individual programs will also have management-level reports which 
measure all facets of those programs, procedures, and/or technologies.
    Question 3. Do you believe that TSA is adequately adapting its 
tactics and resources to mitigate the evolving threats to 
transportation? Similarly, do you believe TSA's foreign partners are 
keeping up with threats emanating from overseas? How has TSA improved 
its overseas footprint and coordination with other governments?
    Answer. The Transportation Security Administration (TSA) identifies 
key risk information related to global aviation, conducts systematic 
analysis to determine key risk drivers, and develops effective and 
efficient strategies that mitigate the in-bound aviation risk to the 
United States. TSA assesses the security posture at international 
airports that serve U.S. aircraft operators and from which foreign air 
carriers serve the United States. TSA has made great strides in 
strengthening its international network by developing and instituting 
an innovative risk management methodology that drives the allocation of 
resources and operations to target the most important vulnerabilities. 
TSA identifies these vulnerabilities and determines how frequently an 
airport should be assessed based on existing data collection and 
analysis. In fiscal year 2015, TSA conducted 146 foreign airport 
assessments and 289 air carrier inspections.
    TSA relies on a wide range of activities, resources, and personnel 
to effect change in the vulnerability posture at a foreign airport. TSA 
determines a way forward, choosing from a number of direct or indirect 
mitigation actions. When a specific threat is identified or significant 
vulnerabilities warrant additional mitigation actions, TSA may issue 
Security Directives and Emergency Amendments to be implemented by air 
carriers at selected locations. Following issuance of these Security 
Directives or Emergency Amendments, TSA relies on a number of methods, 
such as ad hoc visits or inspections, to verify compliance with the 
additional measures. Follow-up assessments and inspections reveal 
whether any reduction in vulnerability occurred. The results of these 
visits enable TSA to determine if the mitigation actions were 
successful.
    TSA also aligns its strategic engagements with international 
partners using this risk-based approach. Through its TSA 
Representatives and International Industry Representatives, as well as 
through TSA Senior Leadership engagement, TSA is able to influence and 
inform key decision makers in both foreign governments and industry on 
on-going threat streams and associated vulnerabilities in the aviation 
security system, and encourage a subsequent mitigation strategy to 
address these vulnerabilities. TSA, through its internationally-
deployed workforce, builds and maintains relationships with foreign 
government officials, foreign and domestic air carriers, civil aviation 
authorities, airport authorities, international aviation organizations, 
and other U.S. Government stakeholders to enhance global aviation 
security. In addition, TSA plays an active role in the International 
Civil Aviation Organization, and engages with a number of regional 
international aviation security working groups, such as the 
Quadrilateral Working Group, where TSA coordinates with other Member 
States on a range of pressing aviation security issues, and mitigation 
measures.
    TSA continues to examine its international footprint to ensure that 
it has the appropriate resources forward-deployed to mitigate the 
inbound threat. Since 2013, TSA has opened two new offices in Africa--
Senegal and Morocco--bringing the total to four offices on that 
continent.
    Question 4. Subsequent to the OIG's report release, Secretary 
Johnson announced that a ``Tiger Team'' of DHS and TSA officials would 
monitor the implementation of measures put in place to improve security 
at airport checkpoints. The committee requests that a copy of the 
``Tiger Team'' report is transmitted to Congress upon completion. By 
what date do you expect this report to be completed?
    Answer. We expect the report to be complete and available to the 
committee not later than November 25, 2015.
    Question 5. Technology plays an important role in mitigating 
evolving threats to transportation security. Traditionally, TSA has 
engaged the same vendors in the procurement process which has hampered 
competition and innovation. What is being done by TSA to engage with 
new vendors and encourage increased competition in the procurement 
process?
    Answer. Almost all of the Transportation Security Administration's 
(TSA) contracts are awarded competitively through open-source 
procurements. However, there are only a limited number of vendors with 
capabilities sufficient enough to satisfy TSA's very specific mission-
related requirements. TSA actively participates--both in a leading and 
supporting role--in recurring industry engagement events to promote 
transparency, and provide input on topics such as key operational 
issues, process improvement, and procurement forecasting. TSA 
encourages robust competition as it ultimately reduces risk to the 
Government and increases vendor performance.
    In addition, TSA frequently works with small businesses interested 
in accessing the market and was pleased to make a significant award to 
a small business. In March 2015, TSA awarded a contract for 1,170 
Explosives Trace Detection (ETD) units to a new Small Business entrant, 
a prime example of a small business introducing new ETD technology into 
aviation security and achieving approval through the TSA Qualified 
Products List process.
    In addition, TSA employs market research by submitting requests for 
information, publishing broad agency announcements, and hosting 
industry days that help facilitate engagement with a variety of 
industry stakeholders, including those that are not currently TSA 
vendors.
    Most recently, TSA issued the Transportation Security Innovative 
Concepts Broad Agency Announcement through FedBizOpps.gov, seeking to 
accelerate the design, realization, and delivery of new capabilities by 
focusing on advancing state-of-the-art technology and increasing 
knowledge or understanding related to transportation security.
    Question 6. Last week, the committee released its report from the 
Task Force on Combating Terrorist and Foreign Fighter Travel. As I am 
sure you are aware, a record number of individuals are traveling to 
active conflict zones, and a number of these individuals return to the 
United States undetected. This poses a serious threat to our Nation's 
security.
    What steps is TSA taking to address this issue? Are you actively 
collaborating with other relevant departments and agencies to develop 
strategies to combat terrorist and foreign fighter travel? How is TSA 
collaborating with partners abroad to identify and prevent bad actors 
from boarding planes bound to the United States?
    Answer. The Transportation Security Administration (TSA) has a 
number of programs in place to identify passengers who have booked 
travel from abroad to the United States, and who may pose a security 
risk. These programs rely upon near-real-time information sharing with 
our stakeholders, industry partners, and the intelligence community. 
TSA's Secure Flight program conducts passenger watch list matching for 
more than 270 U.S. and foreign air carriers with flights into, out of, 
within, and over the United States, as well as covered U.S. flights 
between two international points, to identify individuals who may pose 
a threat to aviation or National security, and designate them for 
enhanced screening or prohibition from boarding an aircraft, as 
appropriate. TSA also provides risk-based, intelligence-driven, 
scenario rules to Customs and Border Protection (CBP) for use in the 
Automated Targeting System--Passenger to identify international 
travelers requiring enhanced screening based upon our knowledge of 
patterns identified as needing additional scrutiny.
    In 2015, TSA identified a number of known or suspected terrorists 
who attempted to travel on commercial aircraft, and who represented the 
highest threat to transportation, some of whom were identified as 
potential foreign fighters. For these cases, TSA took action to address 
the threat, which included, as appropriate, denial of boarding to 
prevent overseas travel to participate in foreign fighting or to 
conduct other nefarious activities.
    TSA also assigns intelligence officers to key components with 
responsibilities for analytical partnerships and watchlisting duties. 
TSA intelligence personnel are embedded at 8 different agencies and 
centers; these include the Department of Homeland Security Office of 
Intelligence and Analysis, the CBP National Targeting Center, the 
Terrorist Screening Center, the National Counterterrorism Center, the 
Central Intelligence Agency, and the National Security Agency. In these 
positions, TSA intelligence analysts work closely across organizational 
lines to optimize information-sharing efforts, and facilitate a 
coordinated U.S. Government response to known and suspected terrorist 
travel. Improved monitoring and vetting processes of travelers with 
robust data analytics provide a clearer understanding of travelers' 
movements, and permit the sharing of a superior common operating 
picture between agencies to mitigate potential threats.
    TSA personnel are also assigned to law enforcement-related agencies 
and task forces to facilitate information sharing. These assignments 
include the Syria-Iraq Task Force, and the Federal Bureau of 
Investigation-led National Joint Terrorism Task Force. These officers 
collaborate daily with the Federal Bureau of Investigation, CBP, and 
other organizations to disseminate intelligence relating to foreign 
fighters.
    Additionally, TSA Field Intelligence Officers assigned to our 
Nation's airports work closely with CBP, and the local Joint Terrorism 
Task Forces locally develop a coordinated approach to engagement with 
local stakeholders and coordinate intelligence messaging and threat 
awareness to the field, developing and maintaining a common aviation 
threat picture for Federal, State, and local task force officers 
assigned to U.S. airports, as well as TSA field components specific to 
foreign fighter Tactics, Techniques, and Procedures.
    Question 7. The President recently signed into law H.R. 719, which 
I introduced earlier this year; this bill requires the TSA to conduct a 
reclassification of employees within the Office of Inspection to ensure 
that those employees classified as criminal investigators spend at 
least 50% of their time conducting criminal investigations. Those 
investigators spending less than 50% of their time on criminal 
investigations will be reclassified and receive pay that is 
commensurate with their actual job responsibilities. The OIG estimated 
that this will result in savings of approximately $17.5 million in 
taxpayer dollars over 5 years. We exchanged letters on this matter this 
summer in which you stated that TSA and OIG are working closely 
together to ensure all employees are properly classified.
    Can you give the committee an estimate of how long it will take to 
evaluate and implement this reclassification?
    Answer. The Transportation Security Administration (TSA) is 
committed to conducting an independent full position classification 
review and workforce analysis to determine the appropriate 
classification of each position currently classified as a criminal 
investigator in the Office of Inspection. TSA will reclassify any 
criminal investigator position that does not meet the minimum legally-
required 50 percent criminal investigation workload.
    TSA and the Office of Personnel Management (OPM)--the recognized 
expert in the field of position classification and workforce analysis--
have agreed to a statement of work for the classification review and 
workforce analysis as requested by the Office of the Inspector General 
(OIG). TSA currently awaits OIG final approval of the OPM methodology 
outlined in the statement of work to initiate the independent OPM 
review and analysis of the TSA Office of Inspection criminal 
investigations workforce.
    Question 8a. Two weeks ago, the President signed into law H.R. 720, 
the Gerardo Hernandez Airport Security Act of 2015, which requires the 
TSA to increase communication and coordination with all pertinent 
agencies that would respond to an airport during a crisis situation, 
which was the result of a tragic event. The committee has voiced 
concern over the amount of training TSOs receive, as it pertains to 
operating technology being used at checkpoints, but I want to make sure 
the TSA is adequately training the TSOs to defend themselves as well. 
This is an officer safety issue and we simply must give the people on 
the front lines the tools to succeed and survive.
    How much training do TSOs receive in defensive tactics?
    Question 8b. How are the TSOs taught to deal with physically 
combative people at the checkpoints, who may or may not have a weapon?
    Answer. While the Transportation Security Administration (TSA) 
currently does not offer defensive tactics training to the Officer 
workforce, it has taken significant steps to address employee safety 
concerns. Immediately following the tragic November 1, 2013, incident 
at Los Angeles International Airport (LAX), TSA required all its 
employees to complete training on how to recognize and respond to an 
active-threat incident in the workplace, be it an office or airport 
environment. TSA developed a series of interactive training courses 
with the support and participation of local airport officials, law 
enforcement officers, and TSA personnel to help Officers:
  <bullet> recognize how to respond when an active shooter is in their 
        vicinity;
  <bullet> identify how to interact with Law Enforcement Officers who 
        are responding to an incident; and
  <bullet> execute the widely-accepted active-shooter response 
        reactions of Run-Hide-Fight.
    Most recently, TSA created a new training course entitled ``Active 
Shooter Incident Response Training.'' Filmed entirely at the 
Indianapolis (IND) airport, the interactive training video reinforces 
the widely-accepted active-shooter response reactions of Run-Hide-
Fight. TSA released the training video in January 2015, with a required 
completion date of March 31, 2015. TSA mandates Active-Shooter training 
as an annual training requirement for its employees, and the entire TSA 
screening workforce has completed the training.
    In addition to the active-shooter video, Operational Directive (OD) 
400-19-2, Emergency Evacuation Drills, addresses the requirement for 
employees to be familiar with the two types of emergency evacuation 
drills: Controlled and uncontrolled. The evacuation drills are 
scenario-based and include active shooter as an uncontrolled drill. The 
minimum requirement is two drills per year. The reporting requirement 
is to document airport completion of emergency evacuation drills in the 
Performance Measurement Information System (PMIS) and individual 
employee completion in the Online Learning Center (OLC).
    Question 9. Airport employee access controls continue to be a 
concerning security vulnerability. I introduced H.R. 3102, the Airport 
Access Control Security Improvement Act of 2015 earlier this year, and 
it passed the House earlier this week.
    Can you please provide an update to the committee on what changes 
to employee access controls TSA has implemented this year? What 
additional changes do you have planned?
    Answer. The Transportation Security Administration (TSA) performed 
a comprehensive review of Aviation Security Advisory Committee (ASAC) 
proposed recommendations regarding access controls. As a result, TSA 
issued Information Circular (IC) 15-01 on April 29, 2015. This IC made 
recommendations to airports to reduce the number of access points to 
the operational minimum, to increase the number of continuous random 
inspections for individuals entering the sterile/secured area other 
than through the checkpoint, and to promote a culture of situational 
awareness by leveraging the Department of Homeland Security's ``If You 
See Something, Say Something'' campaign, or a similar program.
    On August 26, 2015, TSA issued IC 15-01A to provide further details 
regarding recommended inspections and measures previously identified in 
IC 15-01, and those measures that are mandated by TSA in the Security 
Directive (SD) 1542-06-01 series. This version supplied additional 
specific recommendations regarding the inspection of individuals, such 
as inspecting for a minimum number of hours per week, restricting other 
access points when inspections are being conducted, as well as 
recommendation of the methodology of the actual search.
    Finally, TSA is developing a capability for continuous monitoring 
of airport employees' criminal history records. Once implemented, TSA 
will be notified of any change in an employee's status so that 
appropriate action can be taken. At this time, TSA is piloting this 
process at a limited number of airports, and intends to expand it 
system-wide, once completed. TSA already performs recurrent vetting 
against the Terrorist Screening Database.
    TSA continues to work with the airports through the Federal 
Security Directors to ensure access points are kept to an operational 
minimum, and that random and unpredictable inspection of individuals 
and property entering the sterile/secured areas is conducted.
    Question 10. The OIG recently issued a report that uncovered 73 
aviation workers that had links to terrorism which were not detected in 
the initial screening process. Furthermore, the report found that 
different airports employed different screening techniques and there 
lacked consistency across the board. What is the current status of 
TSA's efforts to improve and streamline the employee screening process?
    What additional measures do you feel are necessary in order to 
improve the daily screening of employees at our Nation's airports?
    Answer. The Transportation Security Administration (TSA) is 
committed to further strengthening our ability to identify insider 
threats at our Nation's airports, as well as to streamline the 
employee-vetting process. As indicated in the Office of the Inspector 
General report, 69 individuals (represented by 73 records) had records 
in certain Governmental databases to which TSA did not have automated 
access when they were first vetted. These individuals have never been 
on the terrorist watch list. TSA recognizes the value of having as much 
relevant data as possible to make informed decisions in its vetting, 
and is pursuing access to additional types of intelligence records to 
maximize its vetting capabilities. TSA now requires airports to conduct 
a criminal history records check (CHRC) every 2 years, and will 
continue to do so until an alternative recurrent CHRC process is 
developed. TSA is working collaboratively with the Federal Bureau of 
Investigation (FBI) to develop and establish next generation 
identification databases, which would automatically update an 
employee's criminal history as incidents occur. TSA and FBI are moving 
to pilot the initiative with two airports and one airline. This 
initiative aligns with the Department of Homeland Security's Office of 
Inspector General and Aviation Security Advisory Committee (ASAC) 
recommendations for improving Aviation Workers security.
    TSA has been working to implement many ASAC recommendations for 
improving the employee screening process at our Nation's airports.
    These measures include:
  <bullet> Working to implement the FBI/Next Generation Identification 
        RAP Back Service, which would automatically update an 
        employee's criminal history as events occur in order to augment 
        the current 2-year background check process;
  <bullet> Training enhancements on verification of identification 
        documents, recognition of identity fraud, and behavioral 
        analysis for use by Government and industry partners at the 
        airports;
  <bullet> Increasing intelligence-sharing opportunities with industry 
        partners at the airports; and
  <bullet> Examining the ASAC recommendation to develop enhanced 
        employee access security model based on elements such as 
        intelligence, game theory, and risk-based security principals 
        that would cause employees to have a reasonable expectation of 
        being inspected.
    Question 11. Secretary Johnson stated that random screening of 
airport employees was increased after authorities uncovered that 
aviation workers in Atlanta and New York City were smuggling weapons 
and ammunitions. By how much was screening increased? Do you believe 
that this has been an effective deterrent?
    Answer. In the aftermath of the Atlanta and New York City 
incidents, in January 2015, the Transportation Security Administration 
(TSA) increased the amount of random screening of employees through its 
Playbook Program. With Playbook, TSA personnel conduct screening on an 
unpredictable basis at locations throughout the airport. These 
activities, which include but are not limited to, identity 
verification, physical screening of accessible property, and explosives 
detection, are coordinated at the local airport level and conducted by 
Transportation Security Officers. Playbook operations provide a level 
of risk-based and unpredictable screening for Security Identification 
Display Area badge-holding personnel and others who are entering the 
airport at locations other than the screening checkpoint.
    From January 1-September 30, 2015, TSA screened over 11 million 
employees using Playbook operations. This is a 340 percent increase 
compared to the 2.5 million employees screened using Playbook in the 
prior year.
    Playbook is not the only deterrence method used to address the 
insider threat. TSA has worked with airports to reduce the number of 
access points at airports regulated by TSA to an operational minimum. 
TSA has also recommended and worked with airports to limit access 
privileges for aviation workers.
    TSA believes that providing a visible presence, and additional 
random screening at employee access points, coupled with our other 
layers of security, creates an effective deterrent. TSA will continue 
to focus on mitigating the insider threat.
    Question 12. In a recent response to a letter sent by the 
committee, TSA indicated that it was aware of allegations of sexual 
misconduct by Air Marshals in mid-June. Why was the committee not 
informed of this issue earlier, particularly in light of the oversight 
hearing that was held on the FAMS on July 16?
    Answer. The Transportation Security Administration (TSA) is 
committed to working with committee staff to ensure they are kept aware 
of relevant investigations; however, details will not be available 
until investigations are complete and the circumstances surrounding the 
allegation(s) are known. TSA will continue to keep the committee staff 
up-to-date and informed.
  Questions From Ranking Member Bennie G. Thompson for Peter Neffenger
    Question 1. Has TSA moved forward with the implementation of 
changes to the dispute resolution process and the NRC without adopting 
any of the union's recommendations?
    Answer. No, the Transportation Security Administration (TSA) has 
not moved forward with the implementation of changes to the dispute 
resolution process and the National Resolution Center (NRC) without 
adopting any of the Union's recommendations. The NRC, the TSA office 
that administers and implements the resolution process, has not made 
any changes to the existing resolution process. The NRC provided the 
American Federation of Government Employees (AFGE) a copy of the draft 
dispute resolution process policy for AFGE's input. AFGE provided its 
input and the NRC continues to consider this input and revise the draft 
policy. Once the NRC completes additional revisions to the draft 
dispute resolution process policy, another draft copy will be provided 
to AFGE for input before the revised policy is issued. AFGE was 
informed of this via email on September 29, 2015.
    Question 2. The 2012 Determination requires that the union's 
suggestions be adopted ``to the extent possible.'' Is it TSA's position 
that the union's suggestions were impossible to adopt?
    Answer. As an initial matter, the 2011 Decision issued by former 
Administrator Pistole is no longer in effect. It was replaced by the 
2014 Determination issued by former Administrator Pistole on December 
29, 2014. In regard to the Unitary Dispute Resolution System (UDRS), 
the 2014 Determination does not require that TSA take the Union's 
suggestions to the extent possible. Instead, the 2014 Determination 
stipulates that the Union is encouraged to provide input, including any 
suggestions, comments, and/or concerns to the National Resolution 
Center (NRC) regarding the policy governing the UDRS as applied to 
covered employees. The NRC gave the Union an opportunity to provide its 
input on changes to the Transportation Security Administration (TSA) 
policy governing the UDRS and is considering its input. The NRC will 
give the Union another opportunity to provide further input before the 
policy is issued. If the NRC does not incorporate the Union's input 
into the TSA policy, the NRC will provide a written response to the 
Union explaining the basis for its decision.
    Question 3. TSA and the union are in mediated talks for a new 
contract, and the union has initiated a request for informal interest-
based discussions with TSA. Given the union's strenuous objections to 
TSA's unilateral changes to the NRC and the dispute resolution process, 
will TSA agree to limit the role of the NRC in accordance with the 
Memorandum of Agreement signed by TSA and AFGE throughout the duration 
of those discussions?
    Answer. The current collective bargaining is for a new collective 
bargaining agreement on the negotiable issues listed in former 
Administrator Pistole's December 29, 2014, Determination on 
Transportation Security Officers and Collective Bargaining (2014 
Determination). The NRC is the Transportation Security Administration's 
(TSA) office that administers and implements the dispute resolution 
processes for all TSA employees, not just bargaining unit employees. 
Only one aspect of the dispute resolution process is reflected in a 
Memorandum of Agreement (MOA) signed by TSA and AFGE in 2012. The MOA 
addresses third-party review of certain disciplinary actions and other 
covered disputes for bargaining unit employees. The MOA was not a part 
of collective bargaining in 2012 and is not a part of any collective 
bargaining agreement. Significantly, the MOA also does not govern or 
limit the NRC.
    Question 4. Do the Medical Guidelines apply to TSA managers?
    Answer. The Medical and Psychological Guidelines for Transportation 
Security Administration Transportation Security Officer Job Series (TSO 
Medical Guidelines) apply to the Supervisory Transportation Security 
Officers (STSOs). Management officials, other than STSOs, who manage 
security screeners do not fall under the TSO Medical Guidelines as 
physical/medical requirements have not been established for these 
positions.
    Question 5. Once the exam confirms a TSO has a certain diagnosis of 
migraines, Type 1 or 2 diabetes or heart disease, for instance, is TSA 
required to establish that the medical condition impairs the ability of 
the TSO to perform their duties?
    Is it assumed that a diagnosis or confirmation of a medical 
condition is in itself proof that the TSO is not fit for duty?
    Answer. The Transportation Security Officer (TSO) has to meet the 
medical and psychological requirements of the position. Generally, it 
is not assumed that a diagnosis is in itself proof that the TSO is not 
fit for duty. The Transportation Security Administration's physician 
will obtain information on the TSO's medical conditions, medications, 
and job limitations, and will compare that information with the TSO 
Medical Guidelines, and may seek other sources of medical information 
to determine fitness for duty.
    Question 6. TSOs report that TSA uses a document entitled ``Medical 
Guidelines for Transportation Security Screeners'' to determine whether 
a TSO is fit for duty. Has TSA provided the most current version of 
this document to the American Federation of Government Employees, the 
union elected as exclusive representative of the TSO workforce?
    If not, will you provide the most current version of the Medical 
Guidelines to the union immediately?
    Answer. The current Medical and Psychological Guidelines for 
Transportation Security Administration (TSA) Transportation Security 
Officer (TSO) Job Series (TSO Medical Guidelines) have not been 
provided in their entirety to the American Federation of Government 
Employees (AFGE), due to the sensitive content contained therein. The 
TSO Medical Guidelines are intended for use by medical practitioners. 
Consistent with the 2011 Determination on Transportation Security 
Officers and Collective Bargaining (2011 Determination) and subsequent 
2014 Determination, AFGE did not have the right to the current TSO 
Medical Guidelines as they do not relate to the issues for collective 
bargaining. Union representatives who represent individual bargaining 
unit employees in cases involving the TSO Medical Guidelines have 
received, and continue to receive, copies of the relevant section(s) of 
the TSO Medical Guidelines. TSA is in the process of revising the 
medical guidelines.
    Questions From Honorable William R. Keating for Peter Neffenger
    Question 1a. Administrator Neffenger: Thank you for your testimony 
and thoughtful responses at the Transportation Security Subcommittee 
hearing on October 8, 2015. During our discussion, you said you are 
conducting a ``top-to-bottom'' review of all airports, including access 
control points and what, exactly, constitutes an airport's perimeter.
    What, specifically, has this review entailed and when will it be 
completed?
    Question 1b. Once completed, will you provide its findings to 
interested Members?
    Answer. The Transportation Security Administration (TSA) has worked 
with Federalized airports to closely review all aspects of physical 
security, including access control points and perimeter security. In 
doing so, the total number of access points has been reduced by almost 
10 percent Nation-wide, while airport security personnel and TSA have 
increased random screening of airport employees at those access points.
    The perimeter security of an airport involves perimeter access and 
transition areas at the airport, and includes protection of the fence 
line, active and inactive vehicle & pedestrian gates, maintenance & 
construction gates, vehicle roadways, and general aviation areas. 
Access control security generally refers to security features that 
control who can access certain restricted areas or systems at the 
airport. At an airport, restricted areas may include the baggage claim 
area, baggage makeup area, sterile area, secured area, air operations 
area, catering facilities, cargo facilities, fuel farms, and other 
public spaces and areas. In the context of access control security at 
the airport perimeter (for example, direct entry into the secured area 
through a vehicle access gate), this definition does not include access 
at a passenger checkpoint.
    TSA is working with the Aviation Security Advisory Committee (ASAC) 
on a comprehensive review of airport perimeter security. ASAC has 
provided a list of recommendations to improve perimeter security. These 
recommendations are under review.
    TSA will be pleased to share its findings with the committee and 
interested Members.
    Question 2. Second, you are aware of my long-standing concern for 
transitioning the responsibility of staffing airport exit lanes from 
TSA to airport operators. I have spoken with numerous operators, 
include the Massachusetts Port Authority (Massport), which owns and 
operates three airports in Massachusetts, including Boston Logan 
International Airport, in addition to the Port of Boston. They remain 
troubled that TSA interpreted the staffing of exit lanes as an issue of 
access control rather than screening function, and that the expectation 
for airport operators to staff these exit ways will continue. This is a 
matter of both safety and resources.
    What is TSA's current policy for staffing exit lanes? Will TSA 
continue to staff airport exit lanes into the future? If not, how will 
TSA work with airports to mitigate costs?
    Answer. Currently, approximately two-thirds of the airport 
operators control access at exit lanes by using airport technology or 
personnel. The remaining exit lanes are staffed by the Transportation 
Security Administration (TSA). Under  603 of the Bipartisan Budget Act 
of 2013 (Budget Act), Pub. L. No. 113-67, Div. A,  603, 127 Stat. 1188 
(2013), TSA is responsible for monitoring passenger exit lanes from the 
sterile area of airports at which TSA provided such monitoring as of 
December 1, 2013. TSA interprets  603 of the Budget Act to mean that 
TSA must staff a sterile area exit lane only if the exit lane was in 
existence on December 1, 2013, at one of the 155 airports at which TSA 
was providing monitoring services on that date. Therefore, if an 
airport is remodeling an exit lane and the location of this exit 
remains essentially the same, TSA will continue to staff this lane. If 
the remodeling significantly changes the location of the exit lane, to 
where it is no longer co-located with the screening checkpoint, and/or 
requires additional staffing and resources, TSA is no longer obligated 
to monitor this exit lane.
    TSA provides an evaluation tool, which allows the airport operator 
to input exit lane configurations and parameters, and receive 
recommendations for technological solutions. Consideration of 
technology options to exit lane staffing should also include evaluation 
of related advantages, disadvantages, and trade-offs in breach response 
requirements.
            Questions From Chairman John Katko for John Roth
    Question 1. Inspector General Roth, your office has conducted 
numerous investigations highlighting various challenges that the 
Transportation Security Administration (TSA) faces. What systemic 
problems have you identified?
    Answer. In the past year, I have testified before your committee 
and others on my concerns about TSA's enormous and complex challenges. 
These challenges are systemic; they impact virtually every area of TSA 
operations. Our audits and reviews have shown that TSA's challenges 
include:
  <bullet> assessing risk appropriately;
  <bullet> contracting for goods and services;
  <bullet> deploying and maintaining equipment;
  <bullet> hiring and training an effective workforce;
  <bullet> performing basic management functions to meet its mission; 
        and
  <bullet> operating in a culture resistant to oversight and unwilling 
        to accept the need for change in the face of an evolving and 
        serious threat.
    Question 2. From your perspective what steps do you feel 
Administrator Neffenger should take to reform and improve TSA?
    Answer. Addressing the aforementioned challenges will require time, 
resources, and committed, courageous leadership at every level of 
management and throughout the organization, from the TSA Administrator 
to Transportation Security Officers (TSO) who screen passengers and 
baggage. Examples of steps TSA should take to reform and improve its 
performance include:
  <bullet> Ensure proper staffing, training, and supervision of TSOs to 
        mitigate the effects of human error-related vulnerabilities in 
        passenger and baggage screening.
  <bullet> Ensure everyone in the chain-of-command understands and is 
        committed to addressing passenger and baggage screening 
        vulnerabilities identified in our reports.
  <bullet> Encourage all TSA personnel to identify and report security 
        deficiencies and vulnerabilities and participate in developing 
        and implementing solutions.
  <bullet> Improve the transparency and accountability of efforts 
        undertaken or planned to address the technological, personnel, 
        and procedural deficiencies and vulnerabilities identified by 
        OIG, the Government Accountability Office (GAO), and internal 
        offices, such as TSA's Office of Inspections.
  <bullet> Implement timely, efficient, and effective strategies to 
        ensure all screening equipment is well-maintained and fully 
        operational.
    OIG will continue its oversight of TSA. For example, we plan to:
  <bullet> determine whether the Federal Air Marshal Service (FAMS) 
        adequately manages its resources to detect, deter, and defeat 
        threats to the civil aviation system (Federal Air Marshal 
        Service Oversight of Civil Aviation Security); and
  <bullet> determine the effectiveness of TSA's carry-on baggage 
        screening technologies and checkpoint screener performance in 
        identifying and resolving potential threats at airport security 
        checkpoints (TSA Carry-On Baggage Penetration Testing).
    Our on-going audits and reviews of TSA include:
  <bullet> Office of Human Capital Contracts.--Determine whether TSA's 
        human capital contracts are managed effectively, comply with 
        DHS's acquisition guidelines, and are achieving expected goals.
  <bullet> Security Vetting of Passenger Rail Reservation Systems.--
        Determine the extent to which TSA has policies, processes, and 
        oversight measures to improve security at the National Railroad 
        Passenger Corporation (AMTRAK).
  <bullet> Controls Over Access Media Badges.--Identify and test 
        selected controls over access media badges issued by airport 
        operators.
    Question 3. Looking at your office's extensive body of work as it 
relates to TSA's technology challenges, stepping back, how can TSA 
improve its technology procurement and development processes in order 
to prevent itself from investing in technology that does not adequately 
meet the current threat environment?
    Answer. Our office has also audited and reported on TSA's 
acquisition programs. Although TSA has spent billions on aviation 
security technology, our testing of certain systems revealed no 
resulting improvement. Given the number, type, complexity, and cost of 
these passenger screening technologies, TSA must exercise due diligence 
in developing, procuring, and deploying these valuable and costly 
assets. These systems include:
  <bullet> Explosives Detection System (EDS) machines
  <bullet> Explosives Trace Detection machines
  <bullet> Advanced Imaging Technology (AIT) machines
  <bullet> Bottled Liquid Scanners
  <bullet> X-ray machines
  <bullet> Walkthrough metal detectors.

    OIG has conducted a number of audits that identified issues with 
TSA's procurement, deployment, and maintenance of its passenger 
screening technologies. These audits raise serious questions regarding 
TSA's management of its passenger screening technologies. For example, 
in fiscal year 2013, we reviewed TSA's deployment of AIT machines 
upgraded with automatic target recognition (ATR) software, an upgrade 
that addressed privacy concerns raised by travelers and Members of 
Congress. These concerns led to the passage of the FAA Modernization 
and Reform Act of 2012, which mandated that all AIT screening equipment 
at airports include the ATR upgrade no later than June 1, 2013.
    We determined that TSA failed to develop a strategic acquisition 
and deployment plan for the AIT machines with the required AIT software 
that aligned with the overall needs and goals of its passenger 
screening program. As a result, TSA did not deploy many of the newly 
purchased or upgraded AIT machines and fully utilize them for screening 
passengers. This led to continued use of less capable walk-through 
metal detectors. We made two recommendations to improve future 
deployment and use of AIT machines.
    Question 4. A report issued by your office in May found that TSA's 
airport screening equipment is not being properly maintained. Lack of 
maintenance not only puts into question the effectiveness of the 
equipment, but can reduce the life span of technologies, requiring 
their replacement at the expense of significant taxpayer dollars. What 
has the TSA done to date, to implement the recommendations of this 
report?
    Answer. In May 2015, we reported that because TSA did not ensure 
routine preventive and corrective maintenance was performed according 
to contractual requirements, it could not be certain screening 
equipment was repaired and ready for operational use. We made three 
recommendations to improve TSA's oversight of its maintenance program.
    We recommended that TSA assess penalties when contractors do not 
perform preventive or corrective maintenance according to contractual 
requirements and manufacturers' specifications. We believe TSA's 
actions are sufficient to close this recommendation. Specifically, TSA 
recently signed contracts with Morpho Detection and L-3 Communications 
for preventive and corrective maintenance on EDS equipment. Both 
contracts include specific financial penalties for maintenance not 
completed according to contractual requirements. For preventive 
maintenance, TSA will assess a penalty of 50 percent of the monthly 
invoice amount for the particular machine. The contracts also include 
penalty clauses for corrective maintenance actions when they affect 
operational availability at the equipment and airport level.
    TSA has taken steps to implement the other two recommendations, but 
we do not believe their actions are sufficient to close them. 
Basically, we recommended that TSA airport personnel validate data on 
both types of maintenance to ensure that preventive maintenance is 
completed according to contract requirements and manufacturers' 
specifications and to ensure its screening equipment is repaired and 
ready for operational use.
    TSA has implemented additional reporting requirements for 
maintenance contractors that should provide airports with better 
awareness of maintenance actions on their screening equipment. For 
example, contractors are now required to give monthly preventive 
maintenance schedules to airport coordination centers. However, TSA has 
not yet developed and implemented policies and procedures to verify and 
document the contractors' completion of all required preventive and 
corrective maintenance actions. According to TSA, an independent 
contractor compares the preventive maintenance data with contractual 
requirements, but this is not the same as validating that the work has 
actually been performed, which is the intent of our recommendation. 
Further, although contractors are required to provide certain reports 
on corrective maintenance, TSA does not have policies or procedures to 
verify the information in these reports or test the data for accuracy.
    Question 5. In response to the highly disappointing results of the 
OIG's covert testing of airport screening procedures, Secretary Johnson 
mandated that all airport screeners and managers undergo an 8-hour 
training course. Do you believe that this training is sufficient to 
address the security gap found in the covert testing? What else, if 
anything, should be done to ensure that the workforce has the skills 
they need to effectively perform their duties?
    Answer. On September 22, 2015, my office provided TSA with our 
Classified final report, Covert Testing of TSA's Passenger Screening 
Technologies and Processes at Airport Security Checkpoints, OIG-15-150. 
TSA has 90 days following receipt of the final report to update us on 
the status of its implementation of our recommendation. We cannot 
comment on TSA's training because we have not yet received a formal, 
detailed update. The detailed information on TSA's training will most 
likely contain Classified or Sensitive Security Information and we will 
not be able to discuss or comment on the content of the TSA training in 
the public record. However, once we receive the formal update, we would 
be happy to arrange a meeting with you or your staff to discuss the 
specific details in a Classified setting.
    With respect to other actions TSA can take to ensure its workforce 
has the skills needed to effectively screen passengers at airport 
checkpoints, TSA and OIG must continue to conduct covert testing of 
technology, human performance, and screening procedures used at 
checkpoints. These covert tests must be continuously updated, based on 
intelligence about security threats. Rigorous covert testing will help 
ensure that the TSA workforce is prepared to deal with the constantly-
changing threat environment.
    Question 6. The TSA PreCheck initiative has resulted in more risk-
based and efficient screening of passengers at airports. However, a 
January OIG report found that modifications to the screening and 
vetting process are necessary. Do you feel TSA has taken the necessary 
steps to address these concerns?
    Answer. We reported in January 2015 that TSA's implementation of 
PreCheck and the expedited screening process increased throughput at 
airport checkpoints, but also increased the risk to aviation security 
because TSA was not making individualized risk-based decisions. We made 
recommendations to address identified deficiencies. Initially, TSA did 
not concur with the majority of the 17 recommendations in our report, 
but we have made significant progress in getting TSA's concurrence and 
compliance. As of November 2015, we have closed 3 report 
recommendations; 13 recommendations are open, but resolved, meaning we 
agree with TSA's planned actions to address the intent of these 
recommendations. Although one recommendation remains open and 
unresolved, TSA officials said there has been a significant shift to 
address this recommendation and TSA is currently drafting a response 
outlining these changes. We would be happy to update you and your staff 
on the progress once we have received a formal response from TSA.
    Question 7. Currently fewer than 5% of travelers participate in TSA 
PreCheck. Do you believe TSA has put ample emphasis on enrolling more 
passengers in TSA PreCheck? What additional steps do you feel TSA needs 
to take in order to expand and enhance the PreCheck program?
    Answer. Our review did not focus on expanding the TSA PreCheck 
initiative; GAO conducted a review addressing the expansion.
    We are currently reviewing TSA's Risk-Based Strategy to determine 
the extent to which this strategy informs security and resource 
decisions to protect the traveling public and the Nation's 
transportation systems. Our report, which we expect to publish in the 
spring of 2016, will include a discussion of the PreCheck initiative. 
We look forward to sharing our findings and recommendations with you.
    Question 8. Prior to Admiral Neffenger's confirmation as 
administrator, TSA failed to concur with recommendations in a number of 
your reports. Are there any outstanding recommendations with which TSA 
has not concurred and taken some steps to address at this time?
    Answer. We believe TSA is working in good faith to concur with 
recommendations with which it previously did not concur and to close 
open recommendations. For example, although TSA did not initially 
concur with the majority of our recommendations to correct identified 
TSA PreCheck deficiencies, it continues to seek closure through the 
recommendation follow-up and resolution process. TSA recently told us 
it is reevaluating its position on its open recommendations and for the 
single unresolved recommendation in that report, we are optimistic that 
TSA is reconsidering the wisdom of its position.
    As we reported in Audit of Security Controls for DHS Information at 
John F. Kennedy International Airport (OIG-15-18), TSA did not perform 
required security authorizations or privacy reviews on closed-circuit 
television and surveillance monitoring room technology (i.e., cameras) 
used to record passenger data and photos. We reported that according to 
DHS 4300 security policy, the cameras should be considered IT assets 
and counted as part of DHS's asset inventory. TSA did not concur with 
our recommendation to address this issue, asserting that DHS 4300 
security policy did not apply to the cameras. We are currently working 
with TSA, the DHS Office of the Chief Information Officer, and the DHS 
Office of Privacy to resolve this issue.
    Question 9. It is no secret that employee morale is a significant 
problem at the TSA, both for screeners and agency employees alike. Your 
office has a unique perspective in that you are able to talk 
confidentially with TSA employees. Do you have any insights into the 
underlying cause of the on-going lack of morale at the agency?
    Answer. DHS OIG has not done any recent audit or inspection work in 
this area.
    Question 10. Airports in Miami and Orlando conduct 100% employee 
screening, yet the Aviation Security Advisory Committee report 
concluded that 100% employee screening would be too costly to implement 
Nation-wide. What changes do you feel need to be implemented in order 
to improve the screening of airport employees?
    Answer. Our office is familiar with the Department's Aviation 
Security Advisory Committee's report and the immediate actions 
Secretary Johnson took to increase physical screening of aviation 
employees. We have not conducted work in the area of employee physical 
screening, but we believe that unscreened airport workers represent a 
threat to air transportation security. We recently reviewed aviation 
employee vetting (TSA Can Improve Aviation Worker Vetting, OIG-15-98), 
and our recommendations from that report were very similar to those in 
a recent committee report. The Aviation Security Advisory Committee and 
OIG agree that TSA can strengthen airport employee vetting by:
  <bullet> updating the list of disqualifying criminal offenses;
  <bullet> continuously monitoring criminal activity (recurrent 
        employee vetting); and
  <bullet> maintaining a National database of airport employees whose 
        credentials have been revoked.
    Question 11. The Air Marshal Association, a professional 
association for members of the Federal Air Marshal Service (FAMS), 
advocates shifting the workforce to focus on investigations and anti-
terrorism operations as opposed to deploying on flights to deter 
terrorism and hijacking. Do you think this would be a more effective 
use of manpower and resources?
    Answer. We have not done a large-scale review of FAMS that would 
allow us to draw across-the-board conclusions about whether its legacy 
mission and goals are effectively aligned with the current threat 
environment. This year we will audit FAMS to determine whether it 
adequately manages its resources to detect, deter, and defeat threats 
to the civil aviation system.
    According to the Department's 2014 Quadrennial Homeland Security 
Review, the terrorist threat has changed since the attacks of September 
11, 2001. In our Fiscal Year 2016 Annual Performance Plan, we discussed 
the threat of organized radical extremist groups repeatedly seeking to 
recruit members and export terrorism to the United States. We have also 
seen domestic ``lone offenders'' and those inspired by extremist 
ideologies commit terrorist acts. These threats are difficult to 
detect. In countering terrorism, DHS focuses on preventing attacks; 
preventing unauthorized acquisition, importation, movement, or use of 
chemical, biological, radiological, and nuclear materials and 
capabilities in the United States; and reducing the vulnerability of 
critical infrastructure and key resources, essential leadership, and 
major events to terrorist attacks and other hazards. In the upcoming 
FAMS audit and other audits focused on preventing terrorism and 
enhancing security, OIG will seek to determine how efficiently and 
effectively the Department is working to counter these emerging 
threats.

                                 [all]
</pre></body></html>
